Office of Inspector General
       Audit Report


  PROCESS IMPROVEMENTS ARE NEEDED
FOR IDENTIFYING AND ADDRESSING VEHICLE
            SAFETY DEFECTS

   National Highway Traffic Safety Administration

           Report Number: MH-2012-001
           Date Issued: October 6, 2011
           U.S. Department of
                                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Process Improvements Are Needed for                                          Date:    October 6, 2011
           Identifying and Addressing Vehicle Safety Defects
           National Highway Traffic Safety Administration
           Report Number MH-2012-001

  From:    Joseph W. Comé                                                                    Reply to
                                                                                                         JA-40
                                                                                             Attn. of:
           Assistant Inspector General for
              Highway and Transit Audits

    To:    National Highway Traffic Safety Administrator

           The National Highway Traffic Safety Administration (NHTSA) Office of Defects
           Investigation (ODI) is responsible for determining whether vehicles and vehicle
           equipment have design, construction, or performance defects that could compromise
           safety. From 2002 through 2009, ODI annually received and screened roughly
           40,000 complaints and initiated about 77 defect investigations. In August 2009, ODI’s
           actions received significant media, public, and congressional interest after a dealer-
           owned Lexus 1 accelerated out of control and crashed into a ravine, killing a California
           Highway Patrol officer and three family members.

           On February 19, 2010, the Office of Inspector General (OIG) initiated an audit to
           assess the effectiveness of ODI’s processes for identifying and addressing safety
           defects. Subsequently, Congress and the Secretary of Transportation requested that we
           expand our audit to (1) analyze ODI’s industrywide unintended acceleration (UA) 2
           complaints and investigations; (2) evaluate ODI’s resources to identify and address
           safety defects; (3) compare ODI’s processes with other countries’ defect investigation
           and recall programs; and (4) evaluate NHTSA’s compliance with government ethics
           rules. On April 4, 2011, we issued a letter to Chairman John D. Rockefeller IV, Senate
           Committee on Commerce, Science, and Transportation and Chairman Mark L. Pryor,
           Senate Subcommittee on Consumer Protection, Product Safety and Insurance



           1
               Lexus is a Division of Toyota Motor Company.
           2
               Unintended acceleration is a broad term referring to the occurrence of any degree of acceleration that the vehicle driver did
               not purposely cause to occur. NHTSA does not include brake issues in its definition of unintended acceleration, but we
               included it in our definition.
                                                                                                                2


addressing Government ethics at NHTSA (summarized in exhibit A). 3 We found no
evidence of internal or external undue pressure or influence on ODI’s staff.

This report addresses the three remaining objectives requested by Congress and the
Secretary. Specifically, we assessed (1) ODI’s industrywide UA-related complaints
and investigations and ODI’s investigation of these complaints; (2) ODI’s tools,
processes, and resources for identifying and addressing potential safety defects; and
(3) comparative data on defect investigation, recall processes, and potential best
practices from four foreign countries and their coordination with ODI. We conducted
this audit from February 2010 to September 2011 in accordance with generally
accepted government auditing standards prescribed by the Comptroller General of the
United States. Exhibit A details our objectives, scope and methodology, and related
work; and exhibit B identifies the activities we visited or contacted.

RESULTS IN BRIEF
From 2002 through 2009, about 4 percent of consumer complaints ODI reviewed were
UA-related, and affected multiple vehicle manufacturers. Over this 8-year period, ODI
received a total of 13,778 UA-related complaints and reviewed between 1,400 and
2,200 of them each year. Five major automobile manufacturers accounted for
73 percent of all UA-related complaints received. Toyota Motor Company (Toyota)
had the second highest, accounting for 17 percent of all UA-related complaints. Our
review determined that ODI identified potential UA-related risks and followed its
established processes in conducting subsequent investigations and monitoring the
resulting recalls. As Toyota UA-related consumer complaints increased, 4 ODI initiated
six investigations. ODI’s investigations identified mechanical safety defects that led to
six recalls; and Toyota agreed to pay nearly $33 million in civil penalties for violating
the National Traffic and Motor Vehicle Safety Act. 5 ODI’s investigations did not find
any safety defects in Toyota’s electronic throttle control system. A January 2011
National Aeronautics and Space Administration (NASA) study 6 generally supported
ODI’s investigative results related to Toyota’s electronic throttle control system,
finding no electronic defects; however, NASA did report two hypothetical instances
where UA incidents can occur without being detected.

Despite NASA’s validation of ODI’s investigative results for the Toyota UA-related
cases, process improvements are needed to identify and address vehicle safety defects.
Specifically ODI has not:


3
    OIG Controlled Correspondence 2010-034, April 4, 2011. All OIG correspondence and reports are available on our Web
    site at: www.oig.dot.gov.
4
    Our analysis did not assess the relationship between media reports and complaint increases.
5
    49 U.S.C. Chapter 301.
6
    NHTSA contracted with NASA to study the computerized and electronic systems in Toyota’s vehicles. It contracted with
    the National Academy of Sciences to study UA and electronic vehicle controls across the automotive industry.
                                                                                                                         3


• Adequately tracked or documented pre-investigation activities. ODI’s primary
  means for determining whether an investigation is warranted are consumer
  complaints. However, its central database, Artemis, 7 does not track whether
  complaints are reviewed within established timelines or used to support an
  investigation. Further, ODI does not track evidence supporting potential defects in
  Artemis or thoroughly document Defect Assessment Panel 8 decisions on which
  risks to investigate. Without comprehensive documentation of pre-investigation
  activities, ODI’s decisions are open to interpretation and questions after the fact,
  potentially undermining public confidence in its actions.

• Established a systematic process for determining when to involve third-party or
  Vehicle Research and Test Center (VRTC) 9 assistance. Unlike similar offices in
  other countries, ODI does not have test facilities directly available to its
  investigators. Consequently, ODI makes decisions about the need for third-party or
  VRTC assistance based upon individual investigators’ requests to management
  during an investigation or defect petition review. Some investigators requested
  assistance on mechanical defects or potential electronic issues during UA-related
  investigations while others did not. This process reduces opportunities for realizing
  benefits from and efficiently allocating resources for third-party or VRTC
  assistance.

• Followed timeliness goals for completing investigations or fully implemented its
  redaction policy to ensure consumers’ privacy. Our analysis of 42 investigations,
  selected through a stratified random sample, found that ODI did not complete 23
  (or 55 percent) within established timeliness goals and 3 included personal
  information submitted by manufacturers or consumers that should have been
  redacted before making the files public. After we alerted ODI officials, the personal
  information was removed.

• Established a complete and transparent record system with documented support for
  decisions that significantly affect its investigations. Of the 42 investigation cases
  we sampled, 11 included some type of external manufacturer communication and
  21 included some type of testing. However, ODI’s files, including those on UA, do
  not document meetings with manufacturers and third parties, or determinations of
  testing needs.

7
    The Advanced Retrieval of Tire, Equipment, and Motor Vehicle Information System, or Artemis, is ODI’s primary
    database for storing data used to identify and address potential safety defects.
8
    NHTSA’s Defect Assessment Panel reviews proposals for investigation and decides collectively whether to open an
    investigation. The Defect Assessment Panel includes the Associate Administrator for Enforcement, ODI’s Director and
    Division Chiefs, applicable staff, and a representative from the Office of Chief Counsel.
9
    VRTC is a Federal research facility that conducts research and vehicle testing in support of NHTSA’s mission. VRTC’s
    research covers crash avoidance, crash worthiness, and biomechanics to produce safer vehicles through improved vehicle
    performance, improved occupant protection systems, improved structural integrity of vehicles, increased understanding of
    driver behavior, and the use of intelligent systems to enhance drivers’ ability to avoid crashes and travel safely. In support
    of ODI, VRTC investigates potential safety-related defects in motor vehicles.
                                                                                  4


• Developed a formal training program to ensure staff has the necessary skills and
  expertise. Technology advancements cause continual change within the automotive
  industry, warranting periodic review of staffing and training needs; but ODI has not
  developed a rigorous training program to ensure it stays abreast of these
  advancements.

ODI’s processes are well respected internationally, but its limited information sharing
and coordination with foreign countries reduced opportunities to identify safety defects
or recalls in an increasingly global automobile industry. NHTSA has agreements with
Canada, Japan, and the United Kingdom that include provisions on sharing safety
defect information, but these agreements have yielded only limited informal
discussions on defects and recalls. Foreign ODI counterparts included in our review
had processes comparable to those of ODI, and certain best practices for conducting
vehicle and equipment tests, validating data, and hiring investigators that merit ODI’s
consideration.

We are making a series of recommendations to enhance ODI’s existing processes for
identifying and addressing potential safety defects and ensuring it has the work force
and expertise needed to operate effectively.

BACKGROUND
NHTSA administers highway safety and consumer programs intended to save lives,
prevent injuries, and reduce economic costs resulting from motor vehicle crashes. The
National Traffic and Motor Vehicle Safety Act authorizes NHTSA to issue vehicle
safety standards and to require manufacturers to recall vehicles and equipment that
have safety-related defects or that do not meet Federal safety standards.

ODI’s 53 employees conduct tests, inspections, and investigations to identify motor
vehicles and equipment that contain safety defects and notify the public through recalls
so the defects can be corrected. Exhibit C shows how ODI is organized. In conducting
its investigations, ODI can request that manufacturers provide data on complaints,
injuries, warranty claims, modifications, parts sales, and other items. Exhibit D
provides a full description of ODI’s investigative process and defines investigative
terms used throughout this report.

In response to requirements of the Transportation Recall Enhancement, Accountability,
and Documentation (TREAD) Act, 10 ODI implemented Artemis, established early
warning reporting requirements, and obtained foreign country defect reports. From
2002 through 2009, ODI reviewed about 321,000 consumer complaints, prepared
811 investigative proposals, and conducted 613 investigations—of which 203 were
elevated for additional analysis. During this same period, ODI influenced

10
     Public Law No. 106-414, 114 Stat. 1800 (November 1, 2000).
                                                                                                        5


1,095 manufacturer recalls and conducted 152 queries to assess the adequacy of
manufacturer recalls.

ODI FOLLOWED ESTABLISHED PROCESSES IN REVIEWING
COMPLAINTS AND CONDUCTING UA INVESTIGATIONS
ODI’s review of UA-related consumer complaints across multiple vehicle
manufacturers from 2002 through 2010 alerted it to potential safety-related defects. As
the number of complaints increased during this period, ODI conducted an increasing
number of corresponding investigations. Following established processes, ODI
conducted 24 UA-related investigations with 15 resulting in recalls involving
13 manufacturers. A subsequent congressionally requested third-party review
supported the results of ODI’s Toyota UA-related investigations.

Consumer Complaints Across Manufacturers Alerted ODI to Potential UA
Risks
UA-related consumer complaints that were affecting multiple vehicle manufacturers
alerted ODI to potential industrywide safety-related defects. ODI’s Defect Assessment
Division (DAD) uses consumer complaints as a primary source of information for
determining whether to initiate investigations, including UA-related complaints. Its
investigative staff assesses the severity of a complaint and the potential risk for
additional occurrences; and conducts follow-up interviews with complainants, as
needed, to obtain and validate information. UA-related complaints make up about
4 percent of the approximate 40,000 consumer complaints received annually, 11 and
affect multiple manufacturers. From 2002 through 2009, consumers made between
1,400 and 2,200 UA-related consumer complaints each year, out of a total of 320,909
complaints. As table 1 shows, despite years of fluctuating complaint submissions, the
number of consumers reporting UA-related complaints continually accounted for from
3 percent to 6 percent of all complaints.




11
     OIG identified these UA-related complaints by using broad search terms and analyzing the comments consumers
     submitted. OIG did not validate the information in these complaints.
                                                                                  6


Table 1. Overall Complaints and UA-Related Complaints
(2002 through 2009)
                                                                         Percentage
                Number of                      Number of                   of UA-
                  Overall         Percentage   UA-Related   Percentage    Related
    Year        Complaints         Change      Complaints    Change      Complaints
    2002           46,586            N/A         1,416         N/A          3%
    2003           45,378            -3%         1,571        +11%          3%
    2004           49,099            +8%         2,199        +40%          4%
    2005           40,185           -18%         1,946        -12%          5%
    2006           30,704           -24%         1,430        -27%          5%
    2007           33,133            +8%         1,506         +5%          5%
    2008           37,651           +14%         1,532         +2%          4%
    2009           38,173            +1%         2,178        +42%          6%
Source: OIG Analysis of Artemis

Between 2002 and 2009, the total number of UA-related complaints increased while
the total number of complaints decreased. Overall, ODI received 8,413, or 18 percent,
fewer complaints in 2009 than in 2002. However, UA-related complaints increased
over 50 percent in the same period—from 1,416 complaints in 2002 to 2,178
complaints in 2009. The greatest increases within the 8 years of complaint data we
analyzed were 11 percent in 2003, 40 percent in 2004, 5 percent in 2007, and
42 percent in 2009.

UA-related complaints varied across manufacturers. Five major manufacturers
accounted for 73 percent of the 13,778 industrywide UA-related complaints ODI
received, with Ford having the highest number of overall complaints since 2002.
However, since 2005 Toyota had the highest total number of complaints of any
manufacturer and accounted for 21 percent of all UA-related complaints. Table 2
shows the number and percentage of overall and UA-related complaints by
manufacturer.
                                                                                                            7


Table 2. Overall Complaints and UA-Related Complaints Associated
With Manufacturer Vehicles (2002 through 2009)
                                         Overall                                        UA
                           Number of            Percentage of           Number of            Percentage of
     Manufacturer          Complaints            Complaints             Complaints            Complaints
                    12
General Motors                77,505                  24%                   1,966                   14%
         Ford                 63,214                  20%                   3,018                   22%
       Chrysler               55,651                  17%                   1,587                   12%
        Toyota                20,867                  7%                    2,407                   17%
        Honda                 17,773                  6%                    1,093                   8%

        Other*                85,899                  26%                   3,707                   27%
         Total               320,909                 100%                  13,778                 100%
*Does not include complaints citing two manufacturers if one of the manufacturers is already listed.
Source: OIG analysis of Artemis

Early warning data on fatalities and injuries caused by speed control 13 also varied
across manufacturers. From 2003 14 to 2009, Toyota had fewer overall fatalities and
injuries reported than the top three reported manufacturers, but tied with Ford in
having the highest number when looking specifically at speed control fatalities and
injuries. For the same period, Toyota reported 3,469 fatalities and injuries—374 of
which were speed control fatalities and injuries. Table 3 is a comparison of overall
fatalities and injuries and those associated with speed control.

Table 3. Number of Fatalities and Injuries Reported by
Manufacturers (2003 through 2009)
                                           Overall                                    Speed Control
                         Number of        Number of                    Number of         Number of
     Manufacturer        Fatalities        Injuries         Total      Fatalities         Injuries         Total
 General Motors         1,785               16,477         18,262           17               320            337
      Ford              1,633               10,784         12,417           29               345            374
    Chrysler             638                 3,232          3,870           20               112            132
     Toyota              271                 3,198          3,469           18               356            374
     Honda                78                  962           1,040            2                44             46
      Other              662                 6,997          7,659           19               255            274
      Total             5,067               41,650         46,717          105              1,432          1,537
Source: Office of Defects Investigation


12
   GM and Ford also sold the most vehicles in the United States from 2002 through 2009—selling 31.9 million and
   22.6 million vehicles, respectively.
13
   Speed control is a manufacturer selected component code. This component code can include but was not specifically
   devoted to unintended acceleration.
14
   Early warning reporting data were not available in 2002.
                                                                                8


ODI Conducted Investigations of Toyota Vehicles as Complaints
Increased
ODI opened investigations of Toyota vehicles as the number of UA-related complaints
against Toyota increased. From 2002 through 2009, ODI received nearly 21,000
complaints on Toyota vehicles, of which 2,407 were UA-related (see table 4).

Table 4. Comparison of Overall Complaints vs. UA-Related
Complaints Against Toyota (2002 through 2009)
                                   Overall                         UA
                                       Percentage                    Percentage
                   Number of          Change from     Number of     Change from
       Year        Complaints         Previous Year   Complaints    Previous Year
       2002            1,681                 N/A          76             N/A
       2003            2,051                 +22%        113            +49%
       2004            2,488                 +21%        421            +273%
       2005            2,208                 -11%        246            -42%
       2006            1,913                 -13%        245             0%
       2007            2,585                 +35%        338            +38%
       2008            3,012                 +17%        255            -25%
       2009            4,929                 +64%        713            +180%
      Total           20,867                 N/A        2,407            N/A
 Source: OIG analysis of Artemis
                                                                                                                                                        9


     From 2002 through April 2011, ODI conducted six investigations and two timeliness
     queries of Toyota UA. The opening of investigations corresponded with four distinct
     increases in UA-related complaints against Toyota in 2003, 2004, 2007, and 2009.
     Table 5 shows a time progression of ODI's investigations of Toyota UA-related
     complaints with a corresponding line graph of annual complaints.

     Table 5. Toyota UA-Related Complaints and ODI's Toyota UA-
     Related Investigations and Queries (2002 through 2010)


                                        TQ10002                                                                   800
ODI Toyota Investigations and Queries




                                                                                                                         Toyota UA-Related Complaints
                                        TQ10001                                                                   700

                                        RQ10003                                                                   600

                                        PE10006                                                                   500

                                        PE08025                                                                   400

                                        PE07016                                                                   300

                                        PE05009                                                                   200

                                        PE04021                                                                   100

                                                                                                                  0
                                                  2002   2003   2004   2005   2006   2007   2008   2009   2010

                                             Toyota UA-Related Complaints by Year           ODI Toyota UA-Related Investigations
     Source: OIG analysis of Artemis

     ODI Followed Established Processes in Conducting Investigations of
     Toyota Vehicles
     Our review of all six Toyota UA-related investigations conducted from 2002 through
     April 2011 showed that ODI followed its established investigatory process. In each
     case, ODI conducted a preliminary evaluation (PE) or recall query to assess the scope,
     frequency, affected population, and potential consequences of an alleged defect. It also
     upgraded the PE to an engineering analysis (EA), if additional review, analysis, or
     testing was warranted. ODI closed four of the investigations after Toyota issued six
     recalls to remedy mechanical and mechanical-related defects involving floor mats,
     sticking accelerator pedals, carpet covers, plastic pads in carpets, and anti-lock braking
     systems. ODI closed the remaining two investigations without a recall after its PE.

     In 2010, NHTSA initiated two timeliness queries to assess Toyota’s compliance with
     the National Traffic and Motor Vehicle Safety Act in conducting UA-related recalls.
     To resolve these timeliness queries, Toyota agreed to pay NHTSA $32,750,000—the
     maximum civil penalty of $16,375,000 for each case. In response to a congressional
                                                                                         10


request, we are providing detailed information on ODI’s six investigations and two
timeliness queries (see exhibit E).

We also found that from 2002 through 2009, ODI denied most of the 49 defect
petitions it received. After reviewing supporting data for the 49 defect petitions
covering all manufacturers, ODI determined that investigations were not warranted and
denied 38 petitions, or 78 percent. Similarly, during the same period, ODI denied five
of six defect petitions, or 83 percent, involving allegations of potential UA-related
Toyota defects. The closing documents for the five denied petitions cited the need for
ODI to allocate and prioritize NHTSA’s limited resources. ODI’s five denials were
based on a variety of analyses and tests. All five included complaint analysis and
petitioners' vehicle inspection, four included Toyota information analysis, two
included VRTC testing, and one included third-party analysis or electronic testing.
ODI did not pursue one of the denied petitions because during its assessment of the
petition, the manufacturer announced a recall. ODI therefore concluded that further
work was not warranted. In response to a congressional request, we are providing
detailed information on each of the five denied defect petitions (see exhibit F).

The most frequent causes identified in UA-related investigations was pedal
misapplication and pedal entrapment. Although we did not contract for any scientific
or engineering expertise to assess independently any UA-related technical issues, we
participated in and observed simulated pedal misapplication and pedal entrapment in
Toyota vehicles with ODI officials. As the driver in the simulation depressed the gas
pedal to accelerate, the floor mat trapped the pedal. The simulations clearly showed the
potentially serious consequences that could result during pedal entrapment without the
brake override system. Figure 1 illustrates pedal entrapment.

       Figure 1. Illustration of Pedal Entrapment




       Pedal depressed to simulate vehicle    Pedal is trapped in the lip of the floor mat
       acceleration.                          causing unintended acceleration.
       Source: NHTSA's ODI
                                                                                 11


ODI also conducts field inspections to identify potential safety defects. In 2010, ODI
conducted 58 field inspections of Toyota vehicles with electronic data recorders for
possible indications of additional UA-related defects. In each case, ODI determined the
underlying facts of the incident, examined the vehicle, and reviewed data stored in the
event data recorders. ODI’s analysis found no brake application in 35 of the 58
(60 percent) field inspections and did not identify any additional causes of UA-related
defects.

ODI Followed Established Processes in Conducting Investigations of UA
in Non-Toyota Vehicles
Following its established process, ODI conducted 18 non-Toyota UA-related
investigations. Similar to its investigative approach for Toyota vehicles, ODI analyzed
data to assess the scope, frequency, affected population, and potential consequences of
an alleged defect. Using the number of complaints, crashes, injuries, and fatalities
reported, ODI determined whether a potential risk existed that warranted investigation.
For example, one investigation was prompted by the death of a disabled driver in the
crash of a modified vehicle in which the throttle stuck. ODI’s investigation of the
adaptive device in the modified vehicle found that a defective throttle cable caused the
throttle to stick. The finding resulted in two recalls. For the 18 non-Toyota
investigations, ODI identified 295 complaints, 26 crashes or fires, 12 injuries, and
1 fatality that centered on 12 non-Toyota vehicles and equipment manufacturers (see
table 6).

Table 6. Non-Toyota UA-Related Investigations
(2002 through 2010)
                               Number of                                 Number of
Manufacturer                 Investigations   Manufacturer             Investigations
Ford                               4          Daimler                        1
General Motors                     3          MacNeil Auto Products          1
Chrysler                           2          Honda                          1
Buell                              1          Electronic Mobility            1
Audi                               1          Jonway                         1
KIA                                1          CTS                            1
Source: OIG Analysis of Artemis

As with Toyota UA-related investigations, ODI found that mechanical factors
including floor mats impeding accelerator pedals, throttle bodies sticking, close
proximity of brake and accelerator pedals, and throttle cables icing and freezing caused
the non-Toyota UA events. These investigations resulted in 11 recalls involving over
3.2 million vehicles.
                                                                                 12


A Congressionally Requested Outside Review Supports ODI’s
UA-Related Results
A congressionally requested outside study to address concerns over the adequacy of
UA-related investigations generally supported the results of ODI’s UA-related
investigations of Toyota’s electronic throttle control system. In March 2010, NHTSA
initiated two comprehensive system analyses of electronic throttle control systems to
identify potential causes of UAs. NHTSA contracted with NASA to study whether
Toyota electronic throttle control systems could cause UA. NASA issued its results in
January 2011. NHTSA also contracted with the National Academy of Sciences (NAS)
to study the reliability of electronic throttle control systems in various manufacturers’
vehicles. NAS expects to issue the results of its study in the fall of 2011.

NASA's January 18, 2011 study generally supported ODI’s Toyota UA-related
investigative results. The NASA report also included two hypothetical instances where
UA incidents can occur without being detected—specific dual failures in the pedal
position sensing system and a systematic software malfunction in the main central
processor unit. However, NASA found no electronic defect. This finding is consistent
with our discussions with safety defect officials in other countries. During our
interviews with Canada, Japan, United Kingdom, and Germany officials, we asked
whether they had found electronic issues to be the cause of UA-related instances in
their countries. Although each country had heard of the concerns being raised in the
United States and had conducted analysis related to UA-related issues, none of these
countries have identified electronic causes of UA.

IMPROVEMENTS ARE NEEDED IN ODI’S DEFECT PROCESSES
ODI has processes in place for reviewing complaints and conducting investigations,
but process improvements are needed for identifying and addressing vehicle safety
defects. Specifically, ODI lacks systematic processes for:

   • tracking consumer complaints, and retaining and documenting records of pre-
     investigation decisions,
   • determining when to use third-party or VRTC assistance,
   • ensuring timely investigations of defect complaints,
   • documenting investigation information,
   • protecting consumers' personal information on its Website,
   • assessing workforce needs, and
   • training investigators.
                                                                                 13


ODI Has Not Adequately Tracked, Retained, or Documented Pre-
Investigation Actions
ODI has not tracked complaints or retained and documented pre-investigation data
because ODI's Defects Assessment Division control plan does not address tracking and
retention of pre-investigation actions. Failure to track consumer complaints to the
investigations that the complaints influence could result in repetitive analyses.
Additionally, it does not document when consumer complaints are received or
reviewed, although ODI officials stated that ODI reviewed complaints within 24 hours
of receipt. In June 2010, ODI established a process for tagging each complaint in
Artemis when an ODI screener reviews it. The new tracking tool also includes a date-
time stamp to provide accountability for the screening process to ensure that ODI
reviewed each complaint within 24 hours of receipt. Because ODI did not have
adequate information on the effectiveness of its complaint screening process, we could
not draw any conclusions on the extent to which complaints resulted in
recommendations for investigation.

ODI does not retain all pre-investigation records and does not thoroughly document
pre-investigation decisions or resulting actions. When the pre-investigation process
identifies a trend that warrants a proposed investigation, for example, ODI prepares an
investigation proposal but does not upload this information into Artemis or formally
track its disposition. Rather, ODI houses the investigation proposal outside Artemis
and tracks its disposition through an informal spreadsheet maintained by the Division
Chief.

Further, ODI does not store pre-investigation information, such as insurance company
data, in Artemis. Its failure to document pre-investigation decisions and actions limited
the availability of documentation supporting pre-investigation monitoring, diminished
the monitoring of potential risks, and increased the likelihood of losing or destroying
current and historical data on potential safety defects. For example, crash data State
Farm Insurance provided to a Division Chief before October 19, 2004, was lost when
the Division Chief was killed in an automobile crash. Without proper documentation,
ODI does not have assurance that its data on the status of potential safety defects are
complete nor can it ensure that all information, such as additional complaints, was
included in the pre-investigation phase of its defect assessments.

Finally, ODI does not document, or require documentation of Defect Assessment
Panel decisions, the forum through which NHTSA officials debate and determine
whether ODI will conduct a formal investigation. For example, in March 2004, ODI
opened a PE of MY 2002 through MY 2003 Toyota Camry and Lexus ES300 vehicles
because consumers alleged that the throttle control system failed, resulting in vehicle
surge. In June 2004, Toyota met with ODI officials and in July 2004, ODI closed the
investigation—concluding that a defect trend had not been identified and further use of
agency resources was not warranted. ODI did not document the specific information
                                                                                      14


discussed and conclusions drawn or fully justify why it closed the investigation
without a recall.

ODI Lacks a Systematic Process or Criteria for Identifying the Need for
Third-Party or VRTC Assistance
ODI has not developed a systematic process or criteria for identifying the need for
third-party or VRTC assistance. Rather, ODI bases such decisions upon requests from
individual investigators. If an investigator identifies a need during an investigation or
defect petition review, such as a need to validate information provided by the vehicle
manufacturer, the investigator prepares a test request and obtains approval from an
ODI Division Chief and the Office Director. ODI usually conducts testing at NHTSA’s
VRTC, but it may use outside contractors, as warranted. This process reduces
opportunities for realizing benefits from and efficiently allocating resources for third-
party or VRTC assistance.

During UA-related investigations, some investigators requested assistance on
mechanical defects or potential electronic issues while others did not. For example,
since 2002, ODI conducted 24 individual investigations into allegations of UA,
involving 13 manufacturers. Our analysis of the 24 UA-related investigations found
that 3 involved third-party assistance and 6 included VRTC assistance. For the other
investigations, the investigators did not document whether third-party or VRTC
assistance was considered.

While the January 2011 NASA study generally supports the overall results of ODI’s
UA-related investigations, it also illustrates benefits that can be gained from such
outside assistances and prompted NHTSA to take action. Based on NASA’s
assessment and NHTSA’s February 2011 Technical Assessment of Toyota Electronic
Throttle Control Systems, NHTSA announced plans to consider regulating brake
override systems, keyless ignition systems, and event data recorders; conduct research
on electronic throttle control systems and pedal placement; enhance its knowledge and
capabilities in the area of safety-critical vehicle electronics; and increase staffing as
needs dictate and funding permits. Without an internal process for identifying the need
for outside reviews, opportunities to initiate such changes are reduced.

A systematic process for determining the need for third-party or VRTC assistance
would also better enable NHTSA to identify the resources that should be devoted to
such assistance. Unlike similar offices in other countries that we visited, ODI does not
have test facilities directly available to its investigators; rather, individual investigators
generate such requests. Without a systematic process for identifying investigative
requirements, NHTSA cannot assess the costs and benefits of adopting an approach
that would dedicate more resources to vehicle safety testing.
                                                                                                                 15


ODI Has Not Met Timeliness Goals for Completing Investigations
ODI does not have controls in place to take action on investigations approaching or
exceeding its timeliness goals. ODI established timeliness goals for completing its
defect investigations because timely completion of safety defect investigations is an
important component of ensuring that motor vehicles are safe. According to ODI’s
control plan, ODI’s goal for completing a PE and recall query is 120 days and 360
days for completing an EA.

We found, however, that 24 of 42 investigations 15 reviewed (57 percent) did not meet
these stated goals. ODI did not meet its timeliness goal for 50 percent of the PEs and
40 percent of the EAs in our sample. Table 7 shows the results of our analysis of
ODI’s timeliness.

Table 7. Timeliness of ODI Investigations
                                       Average           Minimum             Maximum
                                      Number of         Number of           Number of
                     Number           Days/Days         Days / Days         Days / Days       Number         Percent
 Segment            Reviewed           Overdue           Overdue             Overdue          Overdue        Overdue
       PE                42             120 / 29            43 / 2            262 / 142           21            50%
       RQ                 2               81 / 0            43 / 0             119 / 0             0              0
       EA                20            321 / 207           29 / 59            881 / 521            8            40%
Source: OIG Analysis of Artemis

ODI officials stated that the complexity of investigations on a case-by-case basis
contributed to not meeting the timeliness goals. Although case complexity can
contribute to the amount of time necessary to complete an investigation, an additional
contributing factor could be the absence of a process to take action on those
investigations identified as approaching or exceeding stated timeliness goals. ODI’s
control plan does not require review or justification for such investigation segments.
As a result, ODI does not have a process for appropriately adjusting goals based on the
complexity of an investigation.

ODI Has Not Properly Documented Investigations
ODI does not have established criteria to ensure proper documentation of
investigations. Investigation files do not include documentation of meetings with
manufacturers and third parties or documentation of associated complaints. Although
we could not quantify the meetings and complaints ODI had not documented, we
identified several examples of missing data. For example, one investigation we
sampled lacked documentation to justify closing the investigation. This type of missing


15
     An investigation may include a PE or RQ and an EA. Although we evaluated the timeliness of each investigative segment,
     we counted the complete investigation only once if a segment of the investigation was untimely.
                                                                                  16


data hinders ODI’s ability to assess or support the adequacy of previous investigations
it conducted.

ODI investigators may contact a manufacturer during an investigation to obtain
information that affects the direction of the investigation. Our investigation case
analyses found that ODI investigators do not consistently document the information
exchanged during these meetings or the decisions ODI makes based on these meetings.
For example, ODI sent an information request to General Motors (GM) during a 2009
EA of MY 2003 and MY 2004 Saab 9-3 vehicles alleging suspension coil spring
breakage; but GM provided the information to ODI later than requested. ODI officials
stated that ODI granted an extension to GM, but we found no evidence of a discussion
or extension within the investigation case file.

ODI uses consumer complaints to support opening and conducting defect
investigations, but it does not document the applicable complaint identification
numbers. For example, a 2009 investigation proposal cited 59 complaints alleging
brake failure in MY 2006 through MY 2008 Honda Odyssey vehicles. ODI decided to
conduct an investigation that began on May 13 and escalated to an EA on October 19.
Although the closing PE document and opening EA document were both dated
October 19, the PE cited 69 complaints and the EA cited 62 complaints. Although a
reduction in the number of complaints could be normal as an investigation progresses
and the potential issue is refined, there is no way to identify the specific complaints
ODI cited because it does not document the applicable complaints in its investigation
case files.

Finally, ODI’s investigations lacked documentation to justify closing investigations.
For example, a PE on loss of headlight function in the MY 2003 through MY 2005
Ford Crown Victoria and Mercury Grand Marquis vehicles was closed in March 2009
without a recall. The closing documents did not provide information on the testing or
actions ODI took to determine that a recall was not warranted. When asked, ODI
officials stated that based on thorough trending, frequency and severity rates, forecast
analysis, and a review of any crashes, injuries, or deaths allegedly caused by the risk or
failure, it made a recommendation to management to close the case. Although ODI
made a logical argument for closing the investigation, we found no evidence of this
justification in the case file.

ODI Has Not Carried Out Its Redaction Policy to Ensure the Privacy of
Consumers’ Personal Information
We found instances where ODI’s current process of manually reviewing and redacting
personal information on its website did not properly protect consumers’ privacy. As a
result, improper public disclosure of information was occurring. Specifically, our
                                                                                                                     17


analysis of a stratified random sample of 60 ODI investigative cases 16 found that in
3 cases, the personal information of 26 consumers was published on ODI’s public
defects investigations website. In one case, a document contained the personal
information of seven vehicle owners—that is, each owner’s first name, last name,
complete vehicle identification numbers, and the name of the repair facility. 17 This
case also included telephone numbers and complete addresses of five of the seven
owners. In this same case, another document contained the personal information of
eight vehicle owners—their first name, last name, telephone number, complete vehicle
identification numbers, and the name of the repair facility. We notified ODI of the
improper disclosures in these three cases, and it has since removed the information
from its public Web site. Based on these findings, we estimate, with 90-percent
confidence, that 5 percent or 15 cases of a universe of 297 cases contained personal
information.

ODI Has Not Conducted a Workforce Assessment
ODI has not conducted a workforce assessment to determine the number of staff
needed nor the specialized skill sets required for ensuring that manufacturers recall
vehicles and equipment with safety-related defects in a timely manner. The DOT
Workforce Planning Guide provides information on assessing staffing needs for
NHTSA and the other Operating Administrations that can facilitate more efficient and
accurate alignment of the workforce to meet its organizational goals, commitments,
and priorities.

Currently, NHTSA has not implemented the systematic workforce planning approach
discussed in the DOT guide. In particular, NHTSA has not evaluated the level of
staffing and skill sets needed for the timely detection of electronic system problems,
such as brake override systems, keyless ignition systems, event data recorders,
electronic throttle control systems, and similar electrical systems, prevalent in today’s
environment. As a result, NHTSA has no assurance that it has the right number of
people with the right skill sets to accomplish its mission.

ODI Has Not Developed a Formal Training Program to Keep Safety Skill
Sets Current
Although ODI’s ability to identify potential risks is dependent on the expertise of its
staff, ODI does not have a formal training program to assist in developing the current
and future workforce to ensure the continuity of institutional knowledge, and to ensure

16
     We selected a statistical sample of 60 of 446 segments opened in 2008 or 2009. For the 60 segments selected, we reviewed
     all 191 related segments, or 60 complete cases. Our review found that 3 of the 60 cases contained private information.
     Based on these findings, we estimate with 90-percent confidence that 5 percent or 15 cases of a universe of 297 cases
     contained personal information. The precision of our estimate is +/-4.2 percent.
17
     Repair facilities typically maintain a database with customers’ personal information, such as first and last names, vehicle
     identification numbers, and license plate numbers. Releasing consumers’ repair facilities provides a potential link for
     obtaining personal information.
                                                                                                    18


investigators are made aware of and become proficient in new technologies. The
legislation establishing ODI does not require a formal training program, and ODI’s
current procedures do not mandate one. However, other organizations that investigate
safety issues use more formalized training. For example, the National Transportation
Safety Board (NTSB) 18 requires formal training for its investigators assigned to
aviation accident/incident investigations, in accordance with guidelines specified by
the International Civil Aviation Organization. The guidance stipulates time intervals
for completion of initial training, on-the-job training, the Basic Accident Investigation
course, additional/advanced accident investigation courses, and completion of an
individual development program.

In contrast, ODI relies heavily on its on-the-job training and supplemental periodic
outside training. For example, from 2002 through 2009, only 15 of 23 ODI defect
investigators took at least one training course directly related to automobile
technology, dynamics, and crashes—for a total of 30 courses during the 8-year period.
As a result, ODI has no assurance that its staff has the appropriate skills sets,
competencies, and expertise needed to achieve agency goals and to meet effectively its
primary mission of protecting the public from automotive vehicle defects.

INTERNATIONAL COMPARISONS SHOW OPPORTUNITIES FOR
ENHANCED SHARING OF INFORMATION AND BEST PRACTICES
ODI’s processes are well respected internationally, but its limited information sharing
and coordination with foreign countries reduced its opportunities to identify safety
defects or recalls in an increasingly global automobile industry. Although we did not
conduct an audit of foreign ODI counterparts’ defect and recall processes, foreign
countries included in our review had processes comparable to ODI’s and certain best
practices for conducting vehicle and equipment tests, validating data, and hiring
investigators that merit ODI’s consideration. These include onsite testing facilities, use
of retired industry personnel, validation of manufacturer data, and completion of
vehicle recalls.

Opportunities Exist for Enhancing Information Sharing
While cooperative agreements are in place between ODI and its foreign counterparts,
ODI’s communication with its counterparts was insufficient for ODI to realize fully
the information sharing opportunities created by the agreements. NHTSA has eight
memorandums of cooperation agreements with foreign governments, including Japan,
Canada, and the United Kingdom. These agreements, which create formal
communication channels between the nations, include provisions on the specific
information the countries can and should share. For example, NHTSA’s agreement

18
     NTSB Operations Bulletin AS-INT-004, “Training Guidelines for Aviation Accident/Incident Investigators,”
     January 6, 2011.
                                                                                19


with Japan states that each country can share information that could indicate the
existence of safety-related defects in motor vehicles. All of the agreements are less
than 10 years old, and one—the United Kingdom agreement—expired in 2007.

Our analysis and interviews of officials in Canada, Germany, Japan, and the United
Kingdom indicated that communication between ODI and its foreign counterparts was
occurring, but more can be done to take full advantage of information sharing
opportunities. For example:

   • Cooperation agreement provisions included information sharing on risks related
     to vehicle safety or safety defects. However, staff in Japan’s Recall Policy and
     Enforcement Office was not aware of an information sharing agreement with
     provisions for sharing information on safety-related defects. Since Japan had no
     knowledge of the agreement, the two nations have not formally exchanged
     information about defect investigations and recalls.

   • Canada’s safety defect and recall division staff were aware of an agreement
     with the United States, but neither country used the provisions to conduct
     meetings on safety-related defects. In addition, the Canadian staff stated that it
     has difficulties obtaining documents from NHTSA.

Although the foreign officials indicated that information sharing was minimal, ODI’s
foreign counterparts consider ODI’s defect investigation documents and Website good
resources in their defect investigations on potential defects in their own country.

ODI Processes are Comparable to Those of Other Foreign Countries
We collected comparative data on defect and recall processes, such as the average
number of annual complaints each country collected and information on each country’s
complaint process, defect investigation, staff, and each staff member’s educational
background from Canada, Germany, Japan, and the United Kingdom. We found that
each of these four countries implemented a defect and recall process and experienced a
number of vehicle recalls comparable to those experienced in the United States.
Exhibit G provides a full comparative list of information for the four countries and the
United States.

Potential International Best Practices Should Be Considered
ODI’s investigations are a known and well-respected resource internationally; but we
identified potential best practices in the countries we contacted that ODI could also
consider. These included onsite testing facilities, hiring retired industry personnel,
validating data, and achieving recall compliance.

   • Use of onsite testing facilities. Of the four international countries included in
     our review, we found that, unlike ODI, two have onsite testing facilities, such as
                                                                              20


   laboratories, for conducting defect assessments or vehicle and vehicle parts tests
   during a defect investigation. For example, Japan’s Recall Policy and
   Enforcement Office has staff at the national traffic safety and environment
   laboratory that work exclusively on defect assessments. Canada has a dedicated
   testing facility where its team can perform forensic analysis, failure analysis and
   testing, and automotive diagnostics for any defect assessment.

   As noted previously, ODI does not have dedicated staff or a dedicated testing
   facility. Rather, it uses NHTSA’s VRTC testing facility to perform defect
   assessments. Although VRTC has approximately five staff members working
   primarily on ODI investigations, it conducts work on a variety of NHTSA’s
   programs, which can result in these staff members being assigned to priorities
   higher than ODI's investigations.

• Use of retired industry personnel. Test facilities in Japan use retired industry
  personnel to work on defect investigations. Most of the retired personnel have
  over 30 years of experience working for the industry in vehicle development or
  vehicle quality control. This work experience facilitates technical discussions
  on potential defects with current industry employees, assists nonretired
  personnel in their understanding of the technical nuisances of potential defects,
  and identifies any required remedy. Although retired personnel are involved in
  defect investigation testing, they are not responsible for identifying safety
  defects. Rather, retired personnel gather information on the potential defects,
  and the Recall Policy and Enforcement Office staff members identify and
  analyze safety defects. While the use of retired industry personnel raises
  questions regarding potential bias toward former employers, our April 2011
  congressional correspondence on Government ethics at NHTSA illustrates that
  the Federal Government has controls to counter potential undue influence.

• Validating manufacturer data. ODI’s counterparts in Japan and Germany
  receive manufacturers’ data similar to the early warning reporting data that ODI
  collects, but unlike ODI, these countries have processes in place to verify
  whether manufacturers’ data submissions are complete and accurate. For
  example, Germany’s safety defect and recall division assesses the plausibility of
  the manufacturer’s data after it receives the data. Similarly, the Recall Policy
  and Enforcement Office staff members in Japan validate data accuracy by
  conducting site visits to manufacturers and dealerships in Japan to ensure
  manufacturers are not withholding information. Further, it collects and verifies
  communication records between dealerships and manufacturers.

• High compliance rate for vehicle recalls. We found that three of the four
  nations we visited or contacted had a high compliance rate for vehicle recalls.
  For example, Japan has a recall compliance rate of about 80 percent, Germany
                                                                                21


      100 percent, and the United Kingdom 92 percent. In contrast, ODI considers a
      65 percent recall compliance rate satisfactory. Canada reviews manufacturer
      recalls on a case-by-case basis and does not calculate an overall compliance
      rate. Further, Germany and the United Kingdom have laws in place that require
      the registration of a recalled vehicle with other governments, while the United
      States does not have a similar law. Through the registration system, the foreign
      counterparts can identify vehicles that do not meet safety regulation
      requirements and Germany can declare the vehicles legally inoperable until
      inspected and repaired according to recall requirements. This vehicle
      registration requirement may explain the higher compliance rates of ODI’s
      counterparts.

CONCLUSION
A tragic crash brought significant public, media, and congressional attention to ODI,
the organization within NHTSA that is responsible for identifying and addressing
safety defects in motor vehicles. NHTSA has processes for identifying and
investigating safety defects, and in fact had identified and addressed UA-related issues
using those processes before the tragic crash. However, ODI has the opportunity to
enhance the effectiveness of its processes by improving documentation, enhancing the
use of third-party or VRTC tests, and assessing resource needs. Opportunities also
exist to enhance NHTSA’s information sharing with safety defect staff in other
countries and for ODI to consider adopting best practices used in other countries. By
taking steps to improve its processes, ODI can better assist NHTSA in carrying out its
mission of saving lives and preventing injuries from motor vehicle crashes.

RECOMMENDATIONS
We recommend that the National Highway Traffic Safety Administrator:

   1. Revise the pre-investigation processes to ensure that the review of each
      complaint is recorded and that complaints are tracked to associated
      investigations in Artemis.

   2. Establish pre-investigation processes for retaining and storing pre-investigation
      records, such as investigation proposals and insurance company data.

   3. Require that decisions made and actions taken by ODI Defect Assessment
      Panels are recorded, including justifications for not proceeding to
      investigations.

   4. Establish systematic processes for determining when a third-party or the
      Vehicle Research Test Center should be used to verify manufacturer
      information or assist in identifying a potential defect.
                                                                               22


   5. Revise the ODI investigation process to require justifications for continuing or
      closing investigations that exceed timeliness goals for PEs and EAs.

   6. Revise the ODI investigation process to establish criteria for documenting
      evidence, such as associated complaints, meetings with manufacturers and other
      stakeholders, and third-party analysis or testing conducted.

   7. Strengthen ODI’s redaction policy and process to better protect consumers’
      personal information from public availability, such as by using automated
      redaction software.

   8. Conduct a workforce assessment to determine the number of staff required to
      ensure that ODI meets its objectives and determines the most effective mix of
      staff.

   9. Develop a formal training program to assist ODI staff in acquiring the
      knowledge and staying abreast of ODI processes and current and new
      automobile technologies.

   10. Develop and implement a strategy for increasing coordination with foreign
       countries to enhance ODI’s ability to identify safety defects and to exchange
       information on foreign recalls.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided NHTSA with our draft report on August 5, 2011, and received its
response on September 21, 2011. NHTSA's response is included in its entirety as an
appendix to this report. NHTSA fully concurred with recommendations 1, 2, 3, 6, and
10 and partially concurred with recommendations 4, 5, 7, 8, and 9, but provided
acceptable alternative actions. We consider NHTSA's planned actions and timeframes
to address recommendations 1 through 8 sufficient, and therefore, consider these
recommendations resolved but open pending completion of the planned action.

NHTSA’s planned action addresses recommendation 9, but does not provide a target
action date for evaluating the need for additional training based on the results of its
business process improvement review. NHTSA's planned actions for recommendation
10 include an informal working group and travel to and discussions with its Canadian
and Chinese counterparts, but do not convey how it will increase coordination with
foreign countries to enhance its ability to identify safety defects and exchange
information on foreign recalls. Accordingly, we are requesting that NHTSA provide
additional information to resolve recommendations 9 and 10.
                                                                               23


ACTIONS REQUIRED
In accordance with follow-up provisions in Department of Transportation
Order 8000.1C, we request that NHTSA provide information demonstrating
completion of its planned actions for recommendations 1 through 8 after planned
action is completed. For recommendation 9, we request that NHTSA provide a target
action date for evaluating the need for additional training based on the results of its
business process improvement review. For recommendation 10, we request that
NHTSA provide additional information on its informal working group that shows how
the group will increase coordination and enhance ODI’s ability to identify safety
defects and exchange recall information with its foreign counterparts. We request
NHTSA provide the additional information requested for recommendations 9 and 10
within 30 days.

We appreciate the courtesies and cooperation of NHTSA representatives and
especially ODI officials during this audit. If you have any questions concerning this
report, please call me at (202) 366-5630 or Wendy Harris, Program Director, at
(202) 366-2794.

                                          #

cc: Audit Liaison, NHTSA
    Audit Liaison, OST
                                                                                                                24



EXHIBIT A. OBJECTIVES, SCOPE AND METHODOLOGY, AND
RELATED WORK

Announced Objectives, Congressional Request, and Secretary
Request
On February 19, 2010, the Office of Inspector General (OIG) initiated an audit of
NHTSA’s ODI. The objectives were to (1) examine NHTSA’s efforts to ensure
that ODI has the appropriate information systems and processes in place to
promptly identify and take action to address potential safety defects as intended by
the Transportation Recall Enhancement, Accountability, and Documentation
(TREAD) Act; 19 (2) assess NHTSA’s procedures and processes for ensuring that
companies provide timely notification of potential safety defects; and (3) examine
the lessons learned from the Toyota recalls to identify any improvement needed in
current policies and procedures.

In addition to our announced objectives, on February 23, 2010, Senator John D.
Rockefeller IV, Chairman of the Senate Committee on Commerce, Science, and
Transportation and Senator Mark L. Pryor, Chairman of the Subcommittee on
Consumer Protection, Product Safety, and Insurance requested that the OIG
review industrywide complaints. Specifically, Congress requested that we review
complaints regarding UA in automobiles containing electronic throttles and
braking control systems; compliance with the TREAD Act and other NHTSA
reporting requirements; and government ethics at NHTSA. On March 23, 2010,
Secretary of Transportation Ray LaHood requested that we assess whether ODI
had the appropriate staff from 2002 to the present to review every complaint
received regarding UA; the ODI staff had the expertise to assess and address the
technical issues raised by complaints; complaints were properly handled; and the
data in ODI’s possession was sufficient to allow ODI staff to identify specific
defects that caused UA.

Scope and Methodology
To address our audit objectives and to respond to the requests from Congress and
the Secretary, we obtained and analyzed consumer complaints submitted to ODI
from 2002 through 2009. 20 We interviewed ODI officials and reviewed ODI’s
written control plans to get an understanding of its process for identifying and
addressing potential safety defects. To assess the consistency and thoroughness of
ODI investigations of Toyota UA-related complaints, we analyzed all of the six
19
     Public Law No. 106-414, 114 Stat. 1800 (November 1, 2000).
20
     The scope of our audit focused on calendar year 2002 through calendar year 2009; however, we expanded the scope
     of our Toyota UA investigations to include information and actions taken in calendar years 2010 and 2011. In
     contrast, our scope for analyzing early warning reporting data was July 2003 through calendar year 2009 because
     early warning reporting was not collected before July 2003.


Exhibit A. Objecti ves, Scope and Methodolog y, and Relat ed Work
                                                                                  25


ODI investigations and two timeliness queries opened between 2002 and April
2011. Additionally, we measured the consistency and thoroughness of each Toyota
UA-related investigation and analyzed the time frames for conducting each
investigation and the progress of each applicable recall.

We also analyzed ODI’s industrywide case files, including those on Toyota. ODI’s
defect and recall process is divided into eight different segments beginning with
pre-investigation activities that include issue evaluations (IE) and defect petitions
(DP); investigation activities that include preliminary evaluations (PE), recall
queries (RQ), and engineering analyses (EA); and recall reviews that include audit
queries (AQ), equipment queries (EQ), and timeliness queries (TQ). To assess
fully ODI’s process, we identified a universe of 446 ODI segments opened from
January 1, 2008, through December 31, 2009. In coordination with the OIG
statistician, we used two strata to randomly select 60 of the 446 segments for
analysis. From the first stratum, which included pre-investigation segments (IE
and DP), we selected 31 of 231 segments; and from the second stratum, which
included investigations and queries (PE, EA, AQ, EQ, RQ and TQ), we selected
29 of 215 segments. Because individual segments make up an entire case file, we
reviewed all segments related to the segment chosen in our stratified random
sample of 60, which resulted in the analysis of 191 segments.

We prepared a similar universe of Toyota segments opened from January 1, 2008,
through December 31, 2009. However, we reviewed all of the eight Toyota case
files with segments that opened in 2008 and 2009 because of the limited number
of segments in the Toyota universe. This brought our stratified random sample to
68. We developed a standard methodology and analyzed case files using Artemis
and ODI’s public website to assess ODI’s adherence to its process and control
plans, adequacy of documentation, and timeliness.

To compare ODI’s defect and recall process with foreign governments, we
analyzed NHTSA’s agreements for sharing information with foreign countries and
ODI’s foreign recall data. We selected four foreign governments with defect and
recall processes comparable to those ODI established. We conducted site visits
and interviewed automotive safety representatives from the governments of
Canada and Japan. We also interviewed automotive safety representatives from
the United Kingdom and Germany. During our interviews, we discussed the
representatives’ respective efforts regarding road safety and motor vehicle
regulation, motor vehicle regulation enforcement, and communication with
NHTSA concerning defect investigations and recalls. We did not audit these
foreign governments nor were we able to validate the data the representatives
provided.

We conducted this performance audit from February 2010 to September 2011 in
accordance with generally accepted government auditing standards prescribed by


Exhibit A. Objecti ves, Scope and Methodolog y, and Relat ed Work
                                                                                                               26


the Comptroller General of the United States. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence that provides a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

Related Work
On January 3, 2002, 21 we issued an audit report assessing NHTSA’s ODI. The
report responded to Senator John McCain, Ranking Minority Member of the
Committee on Commerce, Science, and Transportation request to ensure the
timely implementation of the TREAD Act and to improve ODI operations. We
reported that NHTSA had made progress in meeting TREAD Act requirements,
but still faced challenges in fully implementing the act and improving its ability to
identify potential safety defects. We recommended that NHTSA: (1) issue
regulations required under the TREAD Act in a timely manner; (2) establish a peer
review panel to ensure that data used to identify potential defects are thoroughly
analyzed and investigations are opened and prioritized in a consistent manner, and
identify techniques for collecting and analyzing defect information from a wider
range of sources; and (3) obtain the services of an independent entity to validate
and verify the progress of the Volpe National Transportation Systems Center to
develop a new defect database and reduce development risks, and ensure that the
data being transferred to the new system is accurate and complete. NHTSA
concurred with our recommendations.

On September 23, 2004, 22 we issued a follow-up audit report on NHTSA’s ODI.
We reported that NHTSA successfully implemented 20 of the 22 TREAD Act
requirements, and developed a new safety defects information system (Artemis) in
July 2004. However, the Artemis development effort experienced significant cost
increases and schedule delays. We also reported that NHTSA identified, but could
not verify $17 million in future Artemis operations and maintenance costs.
Further, Artemis did not have the analytical capabilities originally envisioned to
help point analysts to potential safety defects warranting further investigation. We
recommended that NHTSA ensure Artemis costs were adequately supported;
address early warning reporting analysis issues; and establish milestones for
completing procedures to incorporate early warning reporting data into the pre-
investigation process. NHTSA concurred with our recommendations.

On April 4, 2011, we issued a response to Chairman Rockefeller and Chairman
Pryor on government ethics at NHTSA. 23 That response resulted from our review
of former NHTSA officials employed or under contract with automakers. We

21
   OIG Report No. MH-2002-071, “Review of the Office of Defects Investigation,” January 3, 2002.
22
   OIG Report No. MH-2004-088, “Follow-up Audit of the Office of Defects Investigation,” September 23, 2004.
23
   OIG Controlled Correspondence 2010-034, April 4, 2011.


Exhibit A. Objecti ves, Scope and Methodolog y, and Relat ed Work
                                                                               27


determined whether those individuals were in a position to exert undue influence
on NHTSA’s safety defect investigations. We identified and reviewed cases for
current ODI employees who joined NHTSA from the auto industry as well as for
former NHTSA employees who now work for automakers.

We found no evidence of internal or external undue pressure or influence on
ODI’s staff in making any decisions, and no statistical differences in the way the
automakers and NHTSA disposed of these cases. In addition, we found that
NHTSA complied with the U.S. Office of Government Ethics rules and reviewed
financial disclosures appropriately, and that former NHTSA employees received
required ethics training as well as post-employment training. We determined that
NHTSA’s ethics policies and procedures are similar to those of other Operating
Administrations within the Department of Transportation. As a result, we made no
recommendations regarding NHTSA’s ethics policies, procedures, and practices.




Exhibit A. Objecti ves, Scope and Methodolog y, and Relat ed Work
                                                                            28



EXHIBIT B. ACTIVITIES VISITED OR CONTACTED

National Highway Traffic Safety Administration
   Office of the Associate Administrator for Enforcement
      Office of Defects Investigation
              Defects Assessment Division
              Correspondence Research Division
              Early Warning Division
              Medium and Heavy Duty Vehicles Division
              Vehicle Control Division
              Vehicle Integrity Division
              Recall Management Division
   Office of Chief Counsel
      Office of Litigation and Enforcement Division
   Office of the Administrator for Rulemaking
      International Policy, Fuel Economy & Consumer Programs
              Office of International Policy & Harmonization
   Office of the Associate Administrator for Communications and Consumer
   Information
   Office of the Associate Administrator for Vehicle Safety Research
      Applied Vehicle Safety Research

Transport Canada
   Safety and Security
      Road Safety and Motor Vehicle Regulation
             Motor Vehicles Regulation Enforcement
                    Compliance Engineering, Vehicle and Equipment Testing
                    Defect Investigations and Recalls
      Road Safety Programs
      Motor Vehicle Standards, Research and Development
             Standards and Regulation

Japan
   Ministry of Land, Infrastructure, Transport, and Tourism
     Recall Policy and Enforcement Office
     Vehicle and Component Approvals


Exhibit B. Acti vities Visited or Contacted
                                                        29


      International Affairs Office
   National Traffic Safety and Environment Laboratory
      Automotive Defect Investigation
      Planning Office
      Recall Technical Verification Department
   Consumer Commission

Germany
   Federal Ministry of Transport, Building, and Urban
      Vehicle Safety Division

United Kingdom
   Department for Transport
     Vehicle and Operator Services Agency
           Vehicle Safety Branch

Safety Research and Strategies, Incorporated




Exhibit B. Acti vities Visited or Contacted
                                                                                                                30



EXHIBIT C. OVERVIEW OF ODI’S ORGANIZATIONAL STRUCTURE
WITH NUMBER OF STAFF ASSIGNED


                                                Defects Investigation
                                                      Director
                                                           (1)


                                Administrative Assistant
                                          (1)



                                   Correspondence
     Pre-Investigation                                             Investigation             Post-Investigation
                                      Research
           (18)                                                          (23)                       (4)
                                          (6)


        Defects Assessment              Correspondence                  Vehicle Integrity        Recall Management
          Division (DAD)             Research Division (CRD)             Division (VID)            Division (RMD)
                  (11)                          (6)                             (8)                       (4)


       Early Warning Division                                     Vehicle Control Division
              (EWD)                                                        (VCD)
                  (7)                                                           (8)

                                                                   Medium & Heavy Duty
                                                                     Vehicles Division
                                                                        (MHDVD)
                                                                                (7)
Source: OIG Analysis of ODI Data




Exhibit C. O ver vi ew of ODI’s Organizational Structure With Number
of Staff Assigned
                                                                                         31




       EXHIBIT D. OVERVIEW OF ODI’S INVESTIGATIVE PROCESS
       NHTSA’s ODI conducts defect investigations and administers safety recalls. The
       following illustration breaks down the processes by which ODI conducts defect
       investigations and administers safety recalls.




Source: OIG Analysis of ODI Processes

       The first phase, pre-investigation, involves the Defect Assessment Division,
       which screens consumer complaints, external manufacturer communications, and
       other information related to alleged safety defects. The screenings provide ODI the
       basis for determining whether to open an investigation, grant a petition for a defect
       investigation, determine the adequacy of safety recalls, and grant a petition for a
       public hearing on the adequacy of a safety recall. The pre-investigation phase also
       involves the Early Warning Division, which conducts preliminary reviews and
       analyses of early warning reporting information manufacturers submit to identify
       potential risks within these documents and alerts the Defect Assessment Division.
       When the Defect Assessment Division identifies a potential risk, it prepares an
       issue evaluation package. Ultimately, each IE is proposed for investigation,
       resolved with an action by the manufacturer, or reverted to a less active status for
       monitoring for future action. If the Defect Assessment Division determines that it
       needs to conduct additional discussion to determine the status of an IE proposed



       Exhibit D. O ver vi ew of ODI’s Investigat ive Process
                                                                                                              32


for investigation, the Defect Assessment Division can present the IE before the
Defect Assessment Panel. 24

The Defect Assessment Panel reviews IEs to decide collectively whether to open
an investigation. The panel draws on the institutional knowledge and experience of
ODI to identify high priority cases and to ensure appropriate consistency in the
choice of investigation topics. Although complaints and some early warning data
are available to the public, ODI does not publically release pre-investigation
analyses and decisions.

Defect petitions prompt some investigations. For example, any interested person
may file a petition requesting that ODI conduct an investigation into an alleged
safety-related defect in a motor vehicle or motor vehicle equipment. ODI can deny
or grant a defect petition, or investigate it based on office workload and the nature
of the petition. If ODI denies a defect petition, it sends a denial letter to the
petitioner and publishes the action in the Federal Register. If ODI grants a defect
petition, it sends a grant letter to the petitioner and opens an investigation.

The second phase, investigation, involves the formal investigation of alleged
safety defects and recall adequacy. One of three ODI divisions—the Vehicle
Control Division, Vehicle Integrity Division, and the Medium and Heavy Duty
Vehicle Division—conducts investigations. The Vehicle Integrity Division
investigates light vehicles, passenger cars, door integrity, airbags, seat belts, and
child restraints. The Vehicle Control Division investigates engines, throttle,
steering, brakes, suspension, wheels and tires, and control vehicle dynamics. The
Medium and Heavy Duty Vehicle Division investigates all vehicles over 10,000
pounds, school buses, emergency vehicles, and motorcycles. The results of ODI
investigations are available to the public.

Generally, investigations are conducted in two phases—a preliminary evaluation
(PE) and engineering analysis (EA). A PE is the first phase of an investigation.
During the PE, ODI sends an information request letter to the manufacturer,
reviews applicable information, and conducts tests as needed. A recall query (RQ)
is an investigation opened on a recall because the recall remedy appears
inadequate or the scope of the recall appears to be insufficient. ODI conducts the
RQ in a manner very similar to the PE, and attempts to complete the PE or RQ
within 4 months. ODI may close a PE or RQ if it determines that further
investigation is not warranted, or because the manufacturer has decided to conduct
or expand a recall. If ODI determines that further analysis is warranted, the PE or
RQ is upgraded to an EA. An EA is the second phase of an investigation. During

24
     The Defect Assessment Panel includes the Associate Administrator for Enforcement, ODI management and staff, a
     representative from the NHTSA Chief Counsel Office, and other individuals that may have related knowledge or
     experience of the issue under review.


Exhibit D. O ver vi ew of ODI’s Investigat ive Process
                                                                                  33


the EA, ODI conducts a more detailed and complete analysis of the character and
scope of the alleged defect. ODI attempts to complete the EA within 1 year or 360
days. If the results of the EA lead ODI to believe that there is a safety-related
defect and the manufacturer has not conducted a recall, a Multi-Disciplinary
Review Panel will be convened to consider what further action would be
appropriate.

The Multi-Disciplinary Review Panel consists of senior NHTSA officials and
representatives from ODI. If the panel agrees with ODI’s assessment that a recall
is warranted, it issues a Recall Request Letter to the manufacturer calling for a
mandatory recall.

The third phase, post-investigation, involves the Recall Management Division,
which monitors safety defect and noncompliance recalls assessing manufacturers'
compliance with statutory and regulatory requirements. A manufacturer initiates a
safety-related recall when it determines that any of its products contain a safety-
related defect or fails to comply with a Federal Motor Vehicle Safety Standard. A
safety-related recall involves notifying NHTSA, owners, purchasers, and dealers
of a safety defect, and providing a free remedy. Once the manufacturer notifies
NHTSA that it is conducting a recall, the manufacturer must submit six quarterly
reports to the Recall Management Division on the progress of the recall. If any of
those quarterly reports identify issues with a recall, the Recall Management
Division can conduct an audit query, equipment query, or timeliness query. These
queries assess the adequacy of the recall. If the recall has a relatively low
completion rate, the Recall Management Division may initiate an audit query
(AQ). The intent of an AQ is to ensure that all safety recall campaigns comply
with all statutory requirements by examining the procedures and processes used by
a manufacturer to conduct a safety recall. If the AQ questions the installation of a
defective component in vehicles not subject to a recall, an equipment query (EQ)
may be initiated. The intent of an EQ is to ensure the identity and recall of all the
affected vehicles or motor vehicle equipment. If the Recall Management Division
questions the timeliness of the recall, it may initiate a timeliness query (TQ).




Exhibit D. O ver vi ew of ODI’s Investigat ive Process
                                                                                  34



EXHIBIT E. SUMMARY OF ODI’S TOYOTA UA INVESTIGATIONS
AND QUERIES FOR THE PERIOD 2002 THROUGH 2011
Below is a summary of our review of each ODI investigation of UA in Toyota
vehicles from 2002 through 2011. We reviewed available Artemis and public Web
site documents for each investigation and determined whether each investigation
documented the use of complaint, manufacturer, or early warning data and
electronic, software, or third-party testing. According to ODI processes, use of
these data and testing sources during an investigation are optional depending on
the issue being investigated and the complexity of the investigation. Our analysis
of ODI's investigations did not assess whether the use or non-use of data or testing
sources affected the quality of the investigation.
Investigation 1 - Defect Petition 04-003 and Preliminary Evaluation 04-021
On January 15, 2004, a Lexus owner petitioned ODI to review 37 consumer
complaints regarding vehicle speed control issues in NHTSA’s public database.
The petitioner stated that these 37 complaints were similar to multiple instances
experienced in her own Lexus, one of which resulted in a crash. On
February 17, 2004, ODI opened a petition analysis on MY 2002 and MY 2003
Lexus ES300 series vehicles.

ODI’s analysis concluded that only three of the consumer complaints, including
the petitioner’s complaint, involved a throttle control issue. The throttle control
issues alleged by the petitioner were similar to those alleged in consumer
complaints for an issue evaluation regarding throttle control systems on MY 2002
and MY 2003 Toyota Camry and Camry Solara vehicles. Because the throttle
control system on the Lexus ES 300 models is the same as or similar to the throttle
control system used on the Toyota Camry and Camry Solara models, ODI granted
the petition and added the Lexus ES 300 models to the scope of another
investigation. ODI closed the petition request on March 5, 2004.

On March 3, 2004, ODI opened a preliminary evaluation of MY 2002 through
MY 2003 Toyota Camry, Camry Solara, and Lexus ES 300 vehicles based on
37 consumer complaints, defect petition (DP 04-003), and the outcome of a
technical meeting with Toyota. On March 23, 2004, ODI revised the number of
applicable complaints to 11, involving 5 crashes. The subject vehicles were
thought to have been manufactured with an electronic throttle control system that
uses sensors at the accelerator pedal to indicate pedal position. Consumers alleged
that the throttle control system failed to control properly engine speed resulting in
vehicle surge. ODI later excluded the Solara from the investigation because it
lacked the electronic throttle control system.



Exhibit E. Summar y of ODI’s To yota U A Investigations and Queries
for the Period 2002 through 2011
                                                                                 35


On March 30, 2004, ODI sent Toyota a preliminary evaluation information
request. In June 2004, Toyota responded to the request and met with ODI officials.
On July 22, 2004, ODI closed the investigation—concluding that a defect trend
had not been identified and further use of agency resources did not appear to be
warranted. During the investigation, ODI conducted interviews involving
113 consumer complaints, inspected 2 complainant vehicles, reviewed and
analyzed Toyota's information request responses, conducted a limited control
pedal assessment, and attended a Toyota technical presentation that included the
assessment of two demonstration vehicles.

As a result, ODI identified 14 complaints where the alleged defect occurred on
multiple occasions that in some cases were experienced by more than one vehicle
operator or witnessed by other occupants. These complainants stated that the
incidents were of short duration (less than 5 seconds), occurred when the vehicle
was in gear, moving at slow speeds or fully stopped, and that the brake was
effective in overcoming the engine. The incidents occurred randomly and often
were separated by long periods of time or mileage accumulation. However, ODI
did not identify a specific defect that caused these incidents. The other
99 complaints were eliminated—37 because of the lack of information on the
cause and 62 because the incident could not be explained by a failure of the
electronic throttle control system.

ODI’s analysis did not test for electronic or software defects or use third-party
information sources. It conducted its investigation before the availability of early
warning reporting data.

Investigation 2 - Preliminary Evaluation 05-009
On February 10, 2005, ODI opened an investigation of MY 2004 Lexus RX330
vehicles based on 10 consumer complaints related to brake performance. ODI
reviewed consumer complaints, early warning field reports, and manufacturer
information. ODI found that the rubber material used in manufacturing the brake
booster diaphragm in vehicles sold in North America was softer than that used in
Japan and allowed greater deformation of the diaphragm especially in colder
climates. On June 15, 2005, Toyota announced plans to conduct a service
campaign to replace the brake booster on certain MY 2004 Lexus RX330 vehicles.
On the same day, ODI closed its investigation, concluding that Toyota’s action
was sufficient. ODI did not document whether it considered the possibility of an
electronic or software defect or used third-party information sources.

Investigation 3 - Preliminary Evaluation 07-016 and Engineering Analysis 07-
010
On March 29, 2007, ODI opened a preliminary evaluation of MY 2007 Lexus ES
350 vehicles based on allegations that the accessory floor mat could interfere with

Exhibit E. Summar y of ODI’s To yota U A Investigations and Queries
for the Period 2002 through 2011
                                                                                  36


the throttle pedal. Toyota manufactured a standard carpeted floor mat for the
vehicles and an optional rubberized winter floor mat. The hooks used for mat
retention will only secure one floor mat at a time, either the standard mat or
optional winter mat. Interference with the accelerator pedal may occur if the mats
are placed on top of one another or are not properly hooked to the vehicle floor.

On April 5, 2007, ODI sent Toyota a preliminary evaluation information request.
During the investigation, ODI also interviewed complainants, and conducted
vehicle inspections and all weather floor mat testing to assess conditions that may
result in pedal entrapment.

On June 11, 2007, Toyota responded to ODI’s information request and
acknowledged that some of the alleged incidents possibly were related to improper
installation of the driver side all weather floor mat, resulting in interference with
accelerator pedal movement. Toyota stated that it changed the labeling of the all
weather mat and the packaging for future sales. Toyota also planned an owner
mailing to subject vehicle owners warning of the dangers of improper mat
installation. To further investigate the issue and assess actions taken by Toyota,
ODI decided to continue its investigation.

On August 8, 2007, ODI upgraded the investigation to an engineering analysis. On
September 26, 2007, Toyota initiated a voluntary equipment recall of
55,000 winter floor mats sold as an optional accessory for MY 2007 through
MY 2008 Lexus ES350 and Toyota Camry vehicles. As a result, on
October 11, 2007, ODI closed its investigation.

During its investigation, ODI had VRTC investigate MY 2007 Lexus ES 350 to
determine whether a vehicle system malfunction or acceleration caused UA, the
effects of UA, and the potential difficulties with regaining control of a vehicle
after UA. On April 30, 2008, VRTC issued its final report. VRTC surveyed
MY 2007 Lexus ES 350 owners and received 600 responses. Of the responses,
59 owners reported UA incidents and 35 complained about floor mat interference.
VRTC also found that the ignition switch required actuation for three seconds to
turn off the vehicle and that neutral in the gated shift pattern was not immediately
obvious. ODI did not document whether it searched early warning information or
used third-party sources to assess the merits of this investigation.

Investigation 4 - Preliminary Evaluation 08-025 and Engineering Analysis 08-
014
On July 24, 2007, ODI’s Early Warning Division recommended a review of
MY 2004 Toyota Sienna vehicles because of the potential for the center stack trim
piece to entrap the accelerator pedal, which could result in unintended
acceleration. At that time, early warning aggregate data showed an unexplained

Exhibit E. Summar y of ODI’s To yota U A Investigations and Queries
for the Period 2002 through 2011
                                                                                  37


increasing trend. In February 2008, ODI’s Defect Assessment Division began
looking at the issue based on the Early Warning Divisions recommendation,
two field reports, four consumer complaints, and one warranty claim.

On April 10, 2008, ODI opened an investigation to assess allegations that an
interior trim panel could interfere with accelerator pedal movement resulting in
unwanted acceleration of Toyota Sienna vehicles. ODI sent an information request
to Toyota on April 25, 2008. Toyota’s response revealed an April 2003 unwanted
acceleration that occurred during a dynamometer test caused by trim panel with a
missing retaining clip that interfered with the accelerator pedal. In June 2003,
Toyota changed the design of the trim panel to eliminate potential interference.
ODI upgraded its investigation to an engineering analysis on August 8, 2008, and
met with Toyota officials on October 14, 2008. ODI closed its investigation on
January 26, 2009, after Toyota voluntarily initiated a recall to replace the interior
trim panel and retention clip free to owners of the affected vehicles.

During the investigation, ODI inspected Sienna vehicles built before and after the
change to assess the difference. In addition, VRTC conducted tests of subject
vehicles and a technician was able to repeat the unintended acceleration and
determine the root cause. The technician advised that the MY 2005 vehicle had
been modified to prevent entrapment. ODI did not document whether it used third-
party sources to assess the merits of this investigation. Further, ODI did not
document whether it conducted any tests to assess whether electronic or software
defects may have contributed to or caused the issue.

Investigation 5 - Preliminary Evaluation 10-006
On December 31, 2009, ODI began monitoring numerous customer complaints on
brake systems for the MY 2010 Toyota Prius. While monitoring the issue, ODI
investigators interviewed complainants and conducted fieldwork. Complainants
alleged a momentary reduction in braking performance on certain roadway
surfaces leading to extended braking distances that allegedly resulted in some
vehicle crashes. On February 3, 2010, NHTSA opened an investigation to assess
the scope, frequency, and potential safety consequences of the alleged defect. On
February 9, 2010, Toyota issued a voluntary safety recall notice for specific
MY 2010 Toyota Prius and Lexus models to reprogram the anti-lock braking
system control unit. On July 12, 2010, ODI closed its investigation. We could not
identify any documented evidence that ODI searched its early warning information
or used third-party sources to assess the merits of this investigation. Further, ODI
did not document whether it conducted any tests to assess whether electronic or
software defects may have contributed to or caused the issue.




Exhibit E. Summar y of ODI’s To yota U A Investigations and Queries
for the Period 2002 through 2011
                                                                                38


Investigation 6 - Recall Query 10-003
On February 16, 2010, ODI opened a recall query to obtain additional information
from Toyota related to recalls 07E-082, 09V-388, 10V-023, and 10V-017 to more
fully understand and evaluate, among other things, whether the scope of the recalls
is sufficiently broad. Toyota issued these recalls because of unintended and
uncontrolled acceleration due to pedal entrapment in various MY 2004 through
MY 2010 Toyota and Lexus vehicles. During this investigation, Toyota decided to
recall additional vehicles and initiated recalls 11V-112, 11V-113, and 11V-115.
NHTSA closed this query investigation on March 1, 2011

Query 1 - Timeliness Query 10-001
On February 4, 2010, ODI opened a timeliness query to assess Toyota’s timeliness
of defect decisions related to recalls 07E-082, 09V-388, and 10V-023. Toyota
issued these recalls because of unintended and uncontrollable acceleration in
Toyota vehicles due to interference between the accelerator pedal and the driver’s
side floor mat in various MY 2004 through MY 2010 Toyota and Lexus vehicles.
On February 16, September 9, and October 29, 2010, NHTSA requested
information from Toyota related to safety recalls related to UA, including the
timeliness of the recalls. On March 18, October 8, and November 2, 2010, Toyota
provided responses. After reviewing Toyota’s responses, NHTSA decided to
assess civil penalties against Toyota for violations of the National Traffic and
Motor Vehicle Safety Act (Safety Act). Toyota denied its actions violated the
Safety Act, but agreed to pay the statutory maximum civil penalty of
$16,375,000.00. ODI closed this investigation on January 21, 2011.

Query 2 - Timeliness Query 10-002
On February 16, 2010, ODI opened a timeliness query to assess Toyota’s
timeliness of defect decisions related to recalls 10V-017 and 10V-018. Toyota
issued these recalls because of unintended and uncontrolled acceleration due to a
sticking or stuck accelerator pedal in MY 2005 through MY 2010 Toyota vehicles
and MY 2009 through MY 2010 General Motor Pontiac Vibe vehicles. Toyota
responded to ODI’s information request in March 2010. On April 5, 2010,
NHTSA found Toyota liable for civil penalties for violations of the (Safety Act)
and fined Toyota $16,375,000, the maximum penalty available. Toyota denied
untimely actions and violation of the Safety Act, but agreed to pay the penalty to
avoid a dispute with NHTSA and possible litigation. NHTSA closed the case on
August 23, 2010.




Exhibit E. Summar y of ODI’s To yota U A Investigations and Queries
for the Period 2002 through 2011
                                                                                  39



EXHIBIT F. SUMMARY OF TOYOTA UA DEFECT PETITIONS
DENIED FROM 2002 THROUGH 2010
Below is a summary of our review of each ODI analysis of defect petitions related
to UA in Toyota vehicles from 2002 through 2010. We reviewed available
Artemis, public Web site, and Federal Register documents for each petition, and
determined whether each petition analyzed documented the use of complaint,
manufacturer, or early warning data and electronic, software, or third-party testing.
According to ODI processes, use of these data and testing sources are optional
during the petition analysis depending on the issue and complexity of each
petition. Our review of ODI's petition analyses did not assess whether the use or
non-use of data or testing sources affected the quality of the analysis.
Petition 1 - Defect Petition 03-003
On May 13, 2003, ODI was petitioned to review MY 1997 through MY 2000
Lexus 300 and 400 series vehicles for problems specific to vehicle speed control
resulting in sudden acceleration. On July 17, 2003, ODI opened a petition analysis
“to determine whether the petitioner’s allegations involve events outside the scope
of NHTSA's 1989 sudden acceleration study.” This study concluded, “For a
sudden acceleration incident in which there is no evidence of throttle sticking or
cruise control malfunction, the inescapable conclusion is that these definitely
involve the driver inadvertently pressing the accelerator instead of, or in addition
to, the brake pedal.”

ODI’s petition analysis concluded that the results failed to establish the existence
of a defect trend related to vehicle speed control and sudden acceleration incidents
and that there is no reasonable possibility that an order concerning the notification
and remedy of a safety-related defect would be issued as a result of granting the
petition. On September 23, 2003, ODI denied the petition, citing a need to allocate
and prioritize NHTSA’s limited resources.

ODI’s petition analysis included a review of the 1989 study report; information
from its complaint database; an inspection of a MY 1999 Lexus LS 400; and other
information. As part of its analysis, ODI did not document whether it requested
complaint information from Toyota, conducted tests for electronic or software
defects, or used third-party information sources. ODI conducted the analysis
before the availability of early warning reporting data.

Petition 2 - Defect Petition 05-002
On July 8, 2005, ODI received a petition request to determine whether a defect
exists in the electronic throttle control system of MY 2002 through MY 2005
Toyota and Lexus vehicles, or to reopen the 2004 ODI investigation of the
electronic throttle control system in MY 2002 through MY 2003 Toyota Camry,

Exhibit F. Summar y of To yota U A Defect Petitions Denied from 2002
through 2010
                                                                                 40


Camry Solara, and Lexus ES 300 models. A subsequent letter from the petitioner
included additional allegations of interrelated brake and acceleration problems that
allegedly results in inappropriate and uncontrollable vehicle acceleration in
electronic throttle vehicles. On August 5, 2005, ODI began reviewing the
petitioner’s allegations to determine whether to grant or deny the petition.

After conducting a site visit to inspect and drive the petitioner’s vehicle, and
reviewing nearly 1,200 complaints identified as applicable by the petitioner, ODI
could not find evidence to support the existence of a brake or throttle control
defect in the cited models, and determined that many cited products were not
equipped with an electronic throttle control system. On January 3, 2006, ODI
denied the petition, concluding that it was unlikely that NHTSA would issue an
order for the notification and remedy of a safety-related defect as alleged by the
petitioner and that further expenditure of the agency’s investigative resources on
the issues raised by the petition were not warranted. The petitioner however,
questioned ODI’s review because it lacked the expertise of an electrical engineer
and requested that ODI do more.

ODI’s documents for its petition analysis included information from its complaint
database, inspection of the petitioner’s vehicle, and data Toyota provided.
However, ODI did not document whether it searched its early warning
information, used third-party sources to assess the merits of this petition or
conducted any tests to assess whether electronic or software defects may have
contributed to or caused the petitioner’s issue.

Petition 3 - Defect Petition 06-003
On August 24, 2006, ODI received a petition request to conduct a defect
investigation of MY 2002 through MY 2006 Toyota Camry and Toyota Camry
Solara vehicles for engine surging. On September 14, 2006, ODI began evaluating
the petition to determine whether to grant or deny an investigation.

On October 3, 2006, ODI interviewed the petitioner and inspected the subject
vehicle. After ODI’s visit, the subject vehicle was serviced and diagnostic trouble
codes related to the throttle actuator were reviewed. The dealership replaced the
component and provided the original throttle actuator to ODI. ODI worked with
Toyota and arranged for the component supplier to physically inspect and x-ray
the throttle actuator. The supplier also conducted mechanical, electrical, and
environmental testing, and destructive tear down of the original component, but
concluded that there was no problem associated with the throttle actuator.

ODI also sent an information request to Toyota to obtain production data and
warranty claims or parts sales data for the throttle actuator. ODI’s review of that
information found that the overall warranty claim rate for throttle actuators was

Exhibit F. Summar y of To yota U A Defect Petitions Denied from 2002
through 2010
                                                                                 41


less than 0.18 percent, which ODI concluded was unremarkable. ODI also
reviewed its 2004 investigation related to the alleged electronic throttle control
issues in earlier model years of the subject vehicle, which was closed without
identification of a defect trend.

After reviewing and analyzing the available information, ODI did not identify a
vehicle-based defect that would have produced the alleged engine surge in the
petitioner’s vehicle or a problem with the suspect component that had been
removed from the petitioner’s vehicle. On March 9, 2007, ODI denied the petition,
concluding that it was unlikely that NHTSA would issue an order for the
notification and remedy of a defect related to motor vehicle safety at the
conclusion of the requested investigation. It also cited the need to allocate and
prioritize NHTSA’s limited resources to best accomplish the agency’s safety
mission.

ODI’s documents for its petition analysis included information from its complaint
database and information supplied by Toyota. ODI did not document whether it
searched its early warning information.

Petition 4 - Defect Petition 08-001
On January 10, 2008, ODI received a petition request to conduct a defect
investigation of MY 2006 and MY 2007 Toyota Tacoma vehicles for sudden and
uncontrolled acceleration. On January 31, 2008, ODI began evaluating the petition
to determine whether to grant or deny an investigation.

On February 8, 2008, ODI submitted an information request to Toyota requesting
a list of consumer complaints for MY 2004 through MY 2008 Tacoma vehicles.
ODI reviewed and attempted to contact 31 complainants identified by the
petitioner and conducted 24 interviews where consumers described events that
could be attributed to a throttle control issue. Based upon the results of these
interviews, ODI searched the complaint database to identify all reports potentially
involving the throttle control system for MY 2005 through MY 2008 Tacoma
vehicles. ODI identified 97 complaints and interviewed 64 of the complainants.
ODI also reviewed 133 consumer complaints provided by Toyota. In addition,
VRTC tested Tacoma vehicles.

Through its review of the petition, assessment of consumer complaints, interviews,
vehicle tests, and review of Toyota’s information, ODI concluded that further
review would not identify a defect in the Tacoma’s throttle control system. On
September 3, 2008, ODI denied the petition, citing a need to allocate and prioritize
NHTSA’s limited resources. ODI did not document whether it searched its early
warning information, used third-party sources to assess the merits of this petition,



Exhibit F. Summar y of To yota U A Defect Petitions Denied from 2002
through 2010
                                                                                  42


or conducted any tests to assess whether electronic or software defects may have
contributed to or caused the petitioner’s issue.

Petition 5 - Defect Petition 09-001
On March 13, 2009, ODI received a petition request to conduct a defect
investigation of MY 2007 Lexus ES350 vehicles for sudden uncontrollable surges
in acceleration. On April 8, 2009, ODI began evaluating the petition to determine
whether to grant or deny an investigation.

The petitioner referenced an earlier ODI investigation concerning floor mat
interference with accelerator pedal return and questioned why that investigation
failed to include all incidents of unwanted acceleration or consider all potential
causes of vehicle speed control concerns. The petitioner also requested an
investigation of longer duration incidents involving uncontrollable acceleration
where brake pedal application allegedly had no effect. In May 2009, NHTSA
officials and the petitioner met with a Lexus technical specialist at a Lexus
dealership where they interviewed the petitioner and inspected and drove the
vehicle. The Lexus specialist did not identify any fault codes with the vehicle and
Toyota concluded that an improperly installed floor mat caused the incident.

To further assess the petitioner’s request, ODI obtained and reviewed information
from Toyota, reviewed owner complaints alleging incidents of unwanted
acceleration in the subject vehicles, and reviewed VRTC testing results. ODI
identified 64 complaints alleging incidents of unwanted acceleration in MY 2007
Lexus vehicles, resulting in 8 crashes and 15 injuries. ODI’s analysis of these
complaints determined that 50 (78 percent) involved incidents of floor mat
interference, including 7 (88 percent) of the crashes and all 15 injuries. Therefore,
ODI concluded that the only defect trend related to vehicle speed control involved
the potential for accelerator pedals to become trapped near the floor by out-of-
position or inappropriate installation of a floor mat.

On October 5, 2009, Toyota initiated a safety recall to address concerns with
potential accelerator pedal entrapment by floor mats in approximately 3.8 million
vehicles, including the subject vehicles. ODI stated that an additional investigation
was unlikely to result in a finding that a defect related to motor vehicle safety
exists, and on November 2, 2009, ODI denied the petition, citing a need to allocate
and prioritize NHTSA’s limited resources. ODI did not document whether it
searched its early warning information, used third-party sources to assess the
merits of this petition, or conducted any tests to assess whether software defects
may have contributed to or caused the petitioner’s issue.




Exhibit F. Summar y of To yota U A Defect Petitions Denied from 2002
through 2010
                                                                                                            43



             EXHIBIT G. COMPARISON OF ODI DEFECT INVESTIGATION AND
             RECALL PROCESS WITH THOSE OF OTHER NATIONS
                                           Canada
Comparative       United States          (Transport                               United Kingdom
 Category             (ODI)               Canada)             Japan (MLIT)             (VSB)           Germany (KBA)
Approximate           38,000                1,200                 6,000                1,000                  300
Annual
Complaints
Number of          255,917,664        20,166,900 (2008)        78,801,000           34,206,000         57,000,000 (2010)
Vehicles             (2008)                                      (2008)               (2008)
Owned (Year)
Complaints         Complaints are       Complaints are       Complaints are        Complaints are        Complaints are
Process            logged by the           logged by             logged by          submitted by        submitted by the
                        Internet,      telephone or the       telephone, the      telephone, letter,         Internet,
                    telephone, or       Internet. Each          Internet, or       or the Internet.    telephone, media,
                 letter. Complaints       complaint is         government          Complaints are           consumer
                 are used to assist     assessed and             agencies.             used in          organizations, or
                     in identifying   used in identifying    Complaints are       identifying safety       government
                   safety defects.      safety defects.     used in identifying        defects.             agencies.
                                                             safety defects.                             Complaints are
                                                                                                       used in identifying
                                                                                                          safety defect.
Number on               50                    10                    14                    7                    12
Defect
Investigation
Staff
Support               ODI has a        Canada has a             MLIT has a        None, but it uses      KBA does not
Laboratory       laboratory, but no   dedicated facility    laboratory and 16           the                   have a
and Staff        dedicated staff in   to conduct tests      dedicated staffers     manufacturer’s         government
                 the laboratory for    and analysis of           for defect          facilities.        facility, but uses
                      the defect        vehicles and         identification and                           government-
                    investigation        equipment.              technical                                 designated
                       process.                                 verification.                           contractors and
                                                                                                          testing labs.
Electronic        No Information            Electronic           Improper          No Information       No Information
Issues              Obtained           interference was      programming of          Obtained.            Obtained.
                                        found between        the ABS system
                                        mobile two-way         was found in
                                         radios with an         2009-2010
                                      aftermarket cruise       Toyota Prius.
                                           control unit
                                      installed in Toyota
                                              Yaris.




             Exhibit G. Compari son of ODI Def ect Investigation and Recall
             Process With Those of Other Nations
                                                                                                              44


                                             Canada
Comparative       United States            (Transport                                United Kingdom
 Category             (ODI)                 Canada)             Japan (MLIT)              (VSB)          Germany (KBA)
UA Issues         Several from all      All manufacturers      No identified UA      Several from all     Several from all
                  manufacturers,            have UA, no          or electronic       manufacturers,        manufacturers.
                    with major             serious Toyota       control issues;        but has not         Germany has
                   emphasis on           issue. They have     however, their lab       identified a       conducted tests
                     Toyota.                 spent time           is currently        safety defect.     but they have not
                                          investigating the     reinvestigating                             been able to
                                        UA issue, but have           the UA                                identify a real
                                         not identified any    complaints from                           technical problem
                                          issues that were    the past 3 years.                          that is considered
                                            not related to                                                 a serious risk.
                                             driver error.
Technical       Engineers used as           Engineers,           Mechanical,           Automotive           Approbated
Experts          generalists. Staff       technologists,        software, and         engineers with       engineers and
                    has some                 licensed             electrical             industry             several
                   automotive              technicians,         engineers, but         experience.        contractors that
                     industry                licensed              used as                                   have been
                   experience.             mechanics.            generalists.                               certified as
                                                                  Recruits                                 “specialist” in
                                                                 Automotive                                certain fields.
                                                                   industry
                                                                 experience.
Early Warning     Aggregate data,          No reporting       Accident, claims,        No reporting        Manufacturers
Reporting         death and injury,        requirement            and deaths           requirement            must send
Data and         foreign recall, and                            information are                           potential defect,
Analysis           field reports are                          reported. Analyze                           accident, injury,
                 reported. Analyze                             data using basic                               and death
                     data by using                            statistical analysis                         information to
                  software such as                                  in Excel.                              KBA; however,
                   SAS and Excel.                                                                          manufacturers
                                                                                                            only send the
                                                              Data are checked
                                                                                                         information when
                                                              at manufacturers
                                                                                                             they have it.
                                                               and dealerships
                                                               to ensure early                           The information is
                                                              warning reporting                              checked for
                                                                   data are                                   plausibility.
                                                                  accurate.
Recall
Compliance                              Does not calculate
Rate                65 percent            overall rate.           80 percent            92 percent          100 percent
NHTSA Info          NHTSA has            Good verbal and           No formal             No formal       No formal
Sharing             cooperative              electronic       process but one          process, but      process, but
                 agreements with        communication but         is desired.           sometimes        NHTSA ODI’s
                   countries and        document sharing      Currently review       countries discuss   website review
                indicated that they     with NHTSA could      the NHTSA ODI           potential safety   during defect
                  work with other        be improved and      website for recall          defects.       investigations.
                 countries but little       formalized.           and defect
                  documentation.                                investigation
                                                                 information.



             Exhibit G. Compari son of ODI Def ect Investigation and Recall
             Process With Those of Other Nations
                                                                                                           45


                                             Canada
 Comparative       United States           (Transport                             United Kingdom
  Category             (ODI)                Canada)           Japan (MLIT)             (VSB)          Germany (KBA)
 Enforcement         Penalties are      No enforcement         Penalties are        Enforcement       Civil penalties are
 and Civil           available and       actions taken        available and        penalties are      available for non-
 Penalties            have been           since 1994.           have been         available, but no      disclosure of
                  applied. The most                            applied three        enforcement        information, but
                    recent penalty                          times in the past          taken.         no penalties have
                  was in April 2010                         6 years, including                         been applied in
                  when Toyota was                               a penalty in                          the past 7 years.
                   assessed $16.5                           March 2010 when
                     million in civil                        Mitsubishi was
                       penalties.                            fined ¥800,000
                                                                 ($8,823).
 Process                 Defect            Canadian             Delayed             Believes its             N/A
 Issues and       investigation and       processes          instructions to      processes work
 Improvement        recall program       outdated. No       manufacturers to       well in the EU
 Needed          under scrutiny due         process             conduct            environment.
                     to Toyota UA       established for      investigations;
                        issues.         addressing web
                                          complaints.
                                                              More public
                                                              disclosure of
                                                            defect and safety
                                                               information
                                                                 needed;

                                                              Not thorough
                                                             enough repairs
                                                            on recall vehicles.
 Major                   N/A            Each complaint is     Manufacturers          VSB staff
                                                                                                       Manufacturers
 Investigation                           assessed and         conduct defect       regularly visit
                                                                                                        and KBA can
 Differences                              investigated.     investigations and    manufacturers to
                                                                                                      conduct their own
                                                              report findings      review recall
                                                                                                       investigations.
                                                                 back to the        procedures.
                                                               agency. The
                                                                findings are                           KBA can make
                                                                                      VSB staff
                                                              confirmed and                            changes to the
                                                                                  regularly speaks
                                                             validated through                        recall even when
                                                                                  to complainants.
                                                             the lab in certain                       the manufacture
                                                                   cases.                              does not agree.
Source: OIG




              Exhibit G. Compari son of ODI Def ect Investigation and Recall
              Process With Those of Other Nations
                                                                          46



EXHIBIT I. MAJOR CONTRIBUTORS TO THIS REPORT

  Name                                   Title
  Kerry R. Barras                     Program Director

  Wendy M. Harris                     Program Director

  Darrell A. Riegel                   Project Manager

  Kimberley Bolding                   Senior Auditor

  Brian L. Chapman                    Senior Analyst

  Pat D. Conley                       Senior Auditor

  Sandra Menjivar                     Senior Analyst

  Anette Soto                         Senior Analyst

  Maurice Toval                       Senior Auditor

  Marvin E. Tuxhorn                   Senior Auditor

  Carlton H. Hamilton                 Auditor

  Farrin Tamaddon                     Analyst

  Scott L. Williams                   Analyst

  Harriet E. Lambert                  Writer-Editor

  Petra Swartzlander                  Statistician

  Sandra DeLost                       Information Technology Specialist

  William Savage                      Information Technology Specialist




Exhibit I. Major Contributors to This Report
                                                                                         47



APPENDIX. AGENCY COMMENTS


                                                                           Memorandum
U.S. Department
of Transportation

National Highway
Traffic Safety
Administration

From:     David L. Stricklan
          Administrator

To:       Joe Comé
          Assistant Inspector General
           For Highway and Transit Audits

Subject: Response to Draft Report on Vehicle Safety
         Defect Investigations

Independent Analysis Confirms NHTSA Action
NHTSA's Office of Defects Investigation (ODI) employs world class processes and expertise to
identify and investigate potential vehicle defects, and works to ensure that vehicle manufacturers
take prompt and effective action to remediate any demonstrated issues. As a world leader in
vehicle defect investigation ODI employs scientific methods throughout its investigations to
ensure that its results are based on sound analytical processes, clearly and completely supported
by evidence, and thoroughly reviewed.

Together, the OIG report and the comprehensive independent evaluation by the National
Aeronautics and Space Administration (NASA) affirm that NHTSA's conclusions were sound
and its actions well founded with regard to its oversight of unintended acceleration, particularly
with regard to the most recent issues in Toyota vehicles. NHTSA was pleased to have an
opportunity to demonstrate that its policies, procedures, and expertise functioned effectively in
addressing these issues. Recognizing the particular sensitivity of the of the unintended
acceleration issues associated with the Toyota vehicle complaints, NHTSA took the
extraordinary step of enlisting the foremost experts on electronic control systems at NASA to
take a fresh look at the underlying technical issues. NASA's analysis completely supported
NHTSA's findings on these issues.

The OIG report provides added assurance, based on its complete review of NHTSA's actions,
that "ODI followed established processes in conducting investigations of both Toyota and non-
Toyota vehicles." It is critical that the American public understand that ODI provides objective
and thorough analysis and does everything within its statutory authority to enhance vehicle
safety.


Appendix. Agency Comments
                                                                                       48


Recommendations and Response

OIG Recommendation 1: Revise the pre-investigation processes to ensure that the review of each
complaint is recorded and that complaints are tracked to associated investigations in Artemis.

Response: Concur. Enhanced functionality has been added to ODI's tracking system, Artemis, that
tracks the time and date of first review by the Defects Assessment Division (DAD) complaint review
team. While this functionality has been in place since June 2010, an enhanced and more fully automated
version was put into service in December 2010. As a result the time and date of first review by DAD
staff, identity of the reviewer, and any significant changes to the complaint record are tracked. Changes
can be examined in a given complaint's audit trail, which documents the timeliness of DAD's initial
vehicle owner questionnaire (VOQ) review activity. While DAD and the Artemis team will continue to
improve this tool's functionality, these actions fulfill the intent of the recommendation and action has
been completed on this aspect of the recommendation.

Regarding associating complaints with investigations, ODI has tasked the Artemis development team to
begin assessing a new change request to track complaint/investigation associations which will ensure
ODI (and others) can accurately identify complaints (VOQs) that directly support any official ODI
opening or closing resume. We anticipate this revision will be completed by December 31, 2012. In the
interim, ODI will develop and train staff on a procedure currently available in Artemis to manually -
associate complaints to ODI resumes. This interim procedure will be in place by January 31, 2012.

OIG Recommendation 2: Establish pre-investigation processes for retaining and storing pre-
investigation records, such as investigation proposals and insurance company data.

Response: Concur. A procedure and Artemis modifications will be established to store and retain pre-
investigation records and information received from outside sources but not directly associated with an
investigation, complaint, or recall. We anticipate the process and system changes will be in place by
December 31,2012.

OIG Recommendation 3: Require that decisions made and actions taken by ODI Defect Assessment
Panels are recorded, including justifications for not proceeding to investigations.

Response: Concur. The DAD Control Plan will be modified to assure that such information is added to
Artemis via the existing annotation tool for initial evaluations beginning September 30, 2011. DAD will
work with the Artemis team towards obtaining a structured annotation tool to improve annotation
consistency and add priority data elements with the goal of deploying a final technical solution by
December 31, 2012.

OIG Recommendation 4: Establish systematic processes for determining when a third-party or the
Vehicle Research Test Center (VRTC) should be used to verify manufacturer information or assist in
identifying a potential defect.

Response: Concur in Part. While it is possible to clarify and better document the framework for the
decision making process it is important to recognize that decision making in regard to external research
support is highly dependent on the judgment and expertise of relevant staff, and there should be no
expectation that additional systematization can remove, or reduce reliance upon the need for that

Appendix. Agency Comments
                                                                                         49


judgment and expertise. ODI investigative staff is steeped with an average of nearly 25 years of
automotive or investigative experience. In addition, these decisions typically involve input from a
variety of disciplines and sources to help ensure that relevant issues are raised and fully considered. In
most cases NHTSA can gain an adequate understanding of the failure mechanism at work and, if it
decides a defect does likely exist, persuade the manufacturer to conduct a recall without enlisting
NHTSA's VRTC or outside resources for testing, surveys, or other research. In making its
determination to recruit additional expertise to either support NHTSA's determinations, or gain broader
expertise than is readily available within the agency, its decisions are based on a complete and
multidisciplinary assessment of the relevant factors. NHTSA will document a fundamental framework
for the operation of this process to address the recommended action, and intends to add this framework
to the investigative control plan for use by ODI staff by April 1, 2012.

It is important to recognize that the NASA investigation was a highly unusual approach used to obtain
an independent assessment of whether any safety-critical problem existed in a particular vehicle sub-
system, as opposed to a more typical request for research support in the effort to substantiate a vehicle
safety defect in a situation where NHTSA suspects one exists. Specifically, NHTSA had not found
evidence of a possible electronic defect and was confident that none existed but wanted an outside
organization with the necessary expertise to provide an independent review. The NASA study was akin
to pure research on a particular vehicle control system and its possible flaws. The scope covered an
electronic system and its variants used in many different model years. Given its breadth and expense, the
NASA study is not something that NHTSA is likely to engage in often or could afford to frequently
replicate.

OIG Recommendation 5: Revise the ODI investigation process to require justifications for continuing
or closing investigations that exceed timeliness goals for preliminary evaluations and engineering
analyses.

Response: Concur in Part. It is important to note that each investigation is unique in both content and
complexity. ODI's timeliness goals are self-imposed guidelines establishing general expectation and not
requirements enumerating mandates. First and foremost, the ODI process must be driven by safety and
the actions necessary to ensure that safety is the paramount consideration during the investigative
process. The amount of time necessary to establish the existence of a safety defect trend can be affected
by numerous factors, many of which are beyond the control of the principal investigator or ODI.
However, ODI recognizes that there may be value to more fully documenting why some investigations
may extend beyond timeliness goals. In this regard, ODI intends to modify its Control Plan to require
investigators to document the justification for exceeding these goals, including a summary of additional
steps/information required for completing the investigation and a plan for accomplishing those tasks. In
addition, ODI intends to ensure that management reviews of investigations address the timeliness goals,
and any rationale for extending investigations beyond those goals. We anticipate completing this action
by April 1,2012.

OIG Recommendation 6: Revise the ODI investigation process to establish criteria for documenting
evidence, such as associated complaints, meetings with manufacturers and other stakeholders, and third-
party analysis or testing conducted.




Appendix. Agency Comments
                                                                                         50


Response: Concur. The ODI Control Plan will be revised to include a standard document list that
identifies situations when documentation should be created, what information should be contained in the
document, to whom it should be distributed, and where the document should be archived. This
document list should include items such as meetings or communications with manufacturers that result
in decisions being made, travel reports, communications with consumers, a list of consumer complaints
that are being considered at the open and close of an investigation, test reports, contracts with businesses
or offices outside of NHTSA, and investigation closing reports. ODI will develop a set of templates to
be used by investigators that will identify the minimum information required in the document list as well
as other potential information that should be considered. ODI will develop guidelines to for
investigators use, with regard to documenting evidence. We anticipate completing this action by
June 30, 2012.

OIG Recommendation 7: Strengthen ODI's redaction policy and process to better protect consumers'
personal information from public availability, such as by using automated redaction software.

Response: Concur in Part. While NHTSA has adequate policies to protect consumer information, ODI
recently supplemented its internal controls for its redaction process to better ensure the protection of
personally identifiable information (PII). Specifically, on August 17, ODI began requiring a second
level of review to ensure that information collected from manufacturers is redacted prior to web
mounting. This provides an effective -control to avoid inadvertent process issues resulting in insufficient
redaction. After consultation with technical experts, ODI has determined that an automated solution is
not available that could identify and redact all instances of PII in ODI's possession, particularly those
encapsulated in documents with no searchable text layer. As a result, we consider the addition of
secondary review to be responsive to this recommendation and ask that it be closed.

OIG Recommendation 8: Conduct a workforce assessment to determine the number of staff required
to ensure that ODI meets its objectives and determine the most effective mix of staff.

Response: Concur in Part. NHTSA leads in the world in identifying safety defects, analyzing vast
volumes of safety data, managing hundred of recalls annually, and making information available to the
public and any other interested party. However, NHTSA seeks to continually improve its capability and,
assuming the necessary funds are available, will engage an entity with experience in business process
improvement (BPI) to conduct a comprehensive review of ODI to include automation, training, and
processes. The BPI will also assess the workforce with respect to quantity, skill sets, and organizational.
The review will be completed by April 1, 2013.

OIG Recommendation 9: Develop a formal training program to assist ODI staff in acquiring the
knowledge and staying abreast of ODI processes and current and new automobile technologies.

Response: Concur in Part. ODI is staffed with engineers, investigators, and analysts with both the
experience and credentials needed to provide timely and effective investigations of potential vehicle
defects. ODI's investigative staff has expertise based on an average of nearly 25 years experience in
their respective fields. This staff has the expertise and technical skills needed to evaluate the
performance of vehicle systems. Nonetheless ODI recognizes the potential to establish a basic training
framework for investigative staff. This will include fundamentals for new staff, such as 1) automotive
technology, 2) ODI policies and processes, 3) computer skills for data analysis, and 4) Artemis.



Appendix. Agency Comments
                                                                                           51


ODI anticipates completing this training curriculum by September 30, 2012 and will evaluate the need
for additional training based on the results of its BPI.

OIG Recommendation 10: Develop and implement a strategy for increasing coordination with foreign
countries to enhance ODI's ability to identify safety defects and to exchange information on foreign
recalls.

Response: Concur. For years, NHTSA has actively engaged foreign countries in an effort to increase
coordination and information sharing. In fact, many of its meetings with foreign agencies in recent
years have provided assistance to those agencies in establishing or improving their own defects
investigation programs. In the past year alone, much has been accomplished. In June 2011, NHTSA
hosted another International Enhanced Safety of Vehicles conference, which had a special session on
enforcement related issues. Nine countries participated in the event and agreed to establish a worldwide
network for enforcement information of mutual interest. In July 2011, NHTSA requested that an
informal working group under WP .29 be formed to discuss issues of mutual interest to the international
enforcement community. Government delegates in WP.29 have been asked to confirm interest and the
NHTSA Senior Associate Administrator for Vehicle Safety has been tasked to lead this informal
working group. In September 2011, NHTSA Enforcement representatives will visit both Canada and
China to discuss developing a formal process for information exchange.

These actions demonstrate NHTSA's efforts to take advantage of every possible opportunity to conduct
outreach to its counterparts across the globe and benefit from the worldwide pool of knowledge relating
to vehicle safety defects. Relative to its foreign counterparts, NHTSA is unquestionably the most
transparent regulatory automotive safety organization. Our foreign counterparts enjoy the luxury of our
vast public file of investigations, recalls, complaints, early warning data, and technical service bulletins.
We are encouraged by recent trends of increasing international cooperation and will continue to work
directly through the internal groups above to develop alliances, increase coordination and improve the
exchange of enforcement relative information and specifically defects investigation information. Based
on its ongoing and completed efforts to conduct international coordination, NHTSA believes it has, and
will continue to fulfill the intent of this recommendation and asks that it be considered closed.


Thank you for the opportunity to comment on this report. We particularly appreciate the
extensive efforts by the OIG team to understand the specific issues related to unintended
acceleration and the team's careful analysis of the defects investigation process over the last 18
months. Their positive interactions with the NHTSA staff were much appreciated, and will
result over the longer term in enhanced programmatic effectiveness.




Appendix. Agency Comments
